APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-2050
DANA-FARBER CANCER INSTITUTE, INC.,
Plaintiff-Appellee,
v.
ONO PHARMACEUTICAL CO., LTD.,
TASUKU HONJO, E.R. SQUIBB & SONS, L.L.C.,
BRISTOL-MYERS SQUIBB COMPANY,
Defendants-Appellants.
Appeal from the United States District Court for the
District of Massachusetts in No. 1:15-cv-13443-PBS,
Judge Patti B. Saris.
Decided: July 14, 2020
*

*

*

Before NEWMAN, LOURIE, and STOLL, Circuit
Judges.
LOURIE, Circuit Judge.
Ono Pharmaceutical Co. Ltd., Tasuku Honjo, E.R.
Squibb & Sons, L.L.C., and Bristol-Myers Squibb Co.
(collectively, “Ono”) appeal from the judgment of the
United States District Court for the District of Massachusetts after a bench trial ordering that Dr. Gordon
Freeman and Dr. Clive Wood be added to U.S. Patents
7,595,048 (“the ’048 patent”), 8,168,179 (“the ’179 pa-

2a
tent”), 8,728,474 (“the ’474 patent”), 9,067,999 (“the ’999
patent”), 9,073,994 (“the ’994 patent”), and 9,402,899
(“the ’899 patent”) as co-inventors. Dana-Farber Cancer Inst., Inc. v. Ono Pharm. Co., 379 F. Supp. 3d 53 (D.
Mass. 2019) (“Decision”). Because we conclude that the
district court did not err in its inventorship determination, we affirm.
BACKGROUND
This appeal presents an inventorship dispute over
groundbreaking work in the field of cancer treatment.
Each patent at issue claims a method of treating cancer
by administering antibodies targeting specific receptorligand interactions on T cells.
The human immune system comprises many different cell types, but two types of those cells are relevant
here: dendritic cells and T cells. Dendritic cells detect
pathogens and present antigens—proteins from a pathogen or tumor—to T cells. T cells have a variety of
functions but, as relevant here, are responsible for processing information to develop an immune response in
the body using receptors on their surfaces. The primary receptor on a T cell, the T cell receptor, can bind to
antigens to activate an immune response. But a signal
sent to a T cell receptor will not activate the T cell unless a ligand binds to one of its co-stimulatory receptors, such as CD28. CD28 has two ligands, B7-1 and
B7-2, which are expressed in dendritic cells that have
detected infection or cancer. For a T cell to activate an
immune response, two things must happen: (1) an antigen on a dendritic cell must bind to the T cell receptor,
and (2) a B7 ligand on the dendritic cell must bind to
the CD28 receptor on the T cell. In the absence of an
infection or cancer, dendritic cells do not express B7
ligands on their surface thus blocking an immune re-

3a
sponse. B7 ligands also bind to an inhibitory receptor
called CTLA-4, which is only expressed in highly activated T cells. B7 ligands bind more tightly to CTLA-4
than to CD28, so if both receptors are being expressed,
CTLA-4 prevents the B7 ligands from activating the T
cell through the CD28 receptor.
The discovery behind the present patents was the
existence of an inhibitory receptor on T cells, PD-1, and
that, when PD-1 binds to one of its ligands, either PDL1 or PD-L2, the T cell is inhibited and does not attack
the cell expressing the ligand. Expression of the PD-1
ligands in healthy cells generally shields them from attack, but some tumor cells can also express the ligands,
allowing them to circumvent an immune response. The
patents in this case capitalize on the discovery of the
PD-1 receptor-ligand interaction. Each claim recites
uses of antibodies that target either the PD-1 receptor
or its PD-L1 ligand, blocking the receptor-ligand interaction. By blocking the interaction, the use of the inventions in effect stimulates the immune response
against tumor cells that would otherwise have been
hidden by their expression of the PD-L1/L2 ligands.
The appeal raises the question whether Drs. Freeman and Wood should be deemed inventors of the subject matter of the ’048, ’179, ’474, ’999, ’994, and ’899 patents alongside Dr. Tasuku Honjo. Essential to this determination is a recounting of each researcher’s work
and the nature of their collaboration.
Dr. Honjo, a professor at Kyoto University’s medical school, discovered the PD-1 receptor in the early
1990s. He isolated its DNA sequence and began working with the protein in mouse models with Dr. Nagahiro Minato, a colleague studying tumor immunology.
Using knockout mice (wherein the PD-1 gene is not ex-

4a
pressed), they discovered that mice without PD-1
showed symptoms typical of autoimmune disease, suggesting that the receptor was involved in immunesystem inhibition. Based on its structure, Dr. Honjo
believed at that time that PD-1 was in the same family
of proteins as the inhibitory receptor CTLA-4. Drs.
Honjo and Minato submitted their research for publication, and their work was published in Immunity in August 1999.
In mid-1998, Dr. Honjo enlisted a graduate student,
Dr. Yoshiko Iwai, to conduct studies on PD-1 with
knockout mice and human tumor cell lines. Dr. Iwai
found binding of the PD-1 protein in a variety of cells,
including in tumor cells, but she did not identify the
molecule that was binding to the receptor. She also
recognized that her experiments may have yielded false
positives because she used a specific fusion protein.
Her work did not continue at that time because she
took a leave of absence because of illness.
In September 1998, Dr. Honjo met with representatives from Ono, now an assignee of Dr. Honjo’s rights
in the instant patents, and the Genetics Institute, who
connected him to Dr. Wood, a researcher at Genetics
Institute. They discussed Dr. Honjo’s work with PD-1,
and Dr. Wood agreed to collaborate with Dr. Honjo to
find the PD-1 ligand. Dr. Wood believed that the PD-1
receptor could be a candidate for antibody therapy development, and accordingly Dr. Honjo shared with him
PD-1 reagents and a confidential draft of the Immunity
article.
In July 1998, Dr. Freeman, a researcher at DanaFarber, was studying novel B7 ligands. He ran a
search in the BLAST database for a sequence of 208
amino acids that forms part of the binding portion of

5a
the B7-1 molecule. The search yielded 12 results—two
of which were from human ovarian tumors—and Dr.
Freeman began to investigate the sequence further,
titling it “292” after its label in the database.
At this point, the timelines converge. Drs. Wood,
Freeman, and Honjo began sharing information directly. Drs. Wood and Freeman began working together to
determine whether PD-1 binds to 292, and Dr. Wood
informed Dr. Honjo that it does. The three dubbed 292
“PD-L1” and ran further experiments. Dr. Wood sent
Dr. Honjo plans for a journal article, and Dr. Honjo
sent Dr. Wood anti-PD-1 antibodies for further experimentation. Dr. Freeman emailed Dr. Honjo for the
first time at this point, discussing the possibility of a
research collaboration on the PD-1/PD-L1 pathway.
The collaboration culminated in a meeting in Cambridge, Massachusetts in October 1999. At the meeting, Dr. Wood disclosed that PD-1 and CTLA-4 had
similar structures and that PD-L1 antibodies inhibited
the PD-1/PD-L1 interaction. Dr. Freeman disclosed
that 292 was from a human ovarian tumor and that PDL1 shares 20% of its amino acid sequence with B7-1 and
B7-2 but does not bind to either CD28 or CTLA-4. Dr.
Honjo disclosed his unpublished knockout mouse data
indicating that PD-1 inhibits the immune response.
After the meeting, the three began exchanging reagents. Dr. Honjo ran in vitro experiments on the
pathway indicating that it inhibited the immune response, using knockout mouse cells as a control. Drs.
Freeman and Wood filed a provisional patent application disclosing modulation of the immune response via
activating or blocking the PD-1/PD-L1 pathway, but
did not list Dr. Honjo as an inventor.

6a
In the fall of 1999, Dr. Freeman conducted a second
BLAST search and identified another B7-like molecule
that shares 38% of its protein structure with PD-L1.
Over the next year, Dr. Freeman conducted a number
of experiments on this ligand, which he labeled PD-L2.
In January 2000, Dr. Freeman asked Dr. David
Dorfman, a pathologist at the Brigham and Women’s
Hospital, and Dr. Julia Brown, a new postdoctoral researcher, to test both normal and tumor tissues and determine whether PD-L1 was expressed by them. Dr.
Dorfman studied numerous cell lines and found high
PD-L1 expression in tumors, including squamous cell
carcinoma of the tongue, breast lobular carcinoma, lung
and colon adenocarcinoma, and anaplastic large cell
lymphoma. These immunohistochemistry results were
not published until 2003.
In March 2000, Dr. Freeman emailed Dr. Honjo to
tell him about PD-L2 and to send its sequence. Drs.
Honjo, Freeman, and Wood then worked on a journal
article documenting their discoveries concerning PDL1, and, in a final round of edits in April 2000, Dr.
Freeman added a sentence to the paper stating that
PD-L1 was also expressed in cancers and that some
tumors may use PD-L1 to inhibit an antitumor immune
response. This article was published in the Journal of
Experimental Medicine on October 2, 2000.
Drs. Wood, Freeman, and Minato all separately developed antibody candidates. In March 2000, Drs.
Wood and Honjo presented results of their PD-1/PD-L1
collaborative research at a conference. Dr. Iwai also
resumed her knockout mice studies. By May 2000, Drs.
Wood, Freeman, and Honjo were discussing their development of anti-PD-L1 antibodies and the possible
use of those antibodies in treating cancer.

7a
In June 2000, Dr. Honjo learned of the 1999 provisional application filed by Drs. Wood and Freeman, and
challenged his exclusion as an inventor. By September,
the three had met again in Cambridge and Drs. Wood
and Freeman presented the results of their research on
PD-L2. Dr. Honjo presented some new data from Dr.
Iwai’s knockout mice.
In October, Dr. Iwai had generated data suggesting that mouse melanoma tumors expressing PD-L1
grow faster than tumors without PD-L1 expression.
Ono identifies October 2000 as the date Drs. Honjo,
Iwai, and Minato conceived the claimed inventions. As
more data were generated by the Iwai experiments,
Dr. Honjo stopped sharing results with Drs. Freeman
and Wood. The three met one final time in April 2001.
Meanwhile, Dr. Honjo’s attorneys were pursuing
his inventorship claim, but Genetics Institute, the assignee of Drs. Freeman and Wood’s patents, and its attorneys declined to voluntarily add him to their patents. Genetics Institute stated that Dr. Honjo could
pursue his inventorship claim at the PTO. Inventorship
of those patents is not at issue here.
In 2002, Dr. Honjo then filed his own patent application in Japan, disclosing results from Drs. Honjo,
Iwai, and Minato’s experiments. Each patent at issue
in this case claims priority from Dr. Honjo’s Japanese
patent application; none include Drs. Freeman and
Wood as inventors. Because Dr. Freeman is an employee of Dana-Farber, Dana-Farber is presumably the
assignee of any rights he has as an alleged inventor of
any of the patents in suit. Pfizer, which purchased Genetics Institute, is presumably the assignee of any
rights Dr. Wood has in the patents, but Pfizer has

8a
transferred its potential interest in the patents to Ono.
None of these relationships is at issue here.
Dr. Freeman allegedly learned about the ’048 patent in 2010 but did not pursue litigation until 2015. Dr.
Wood may have known of the patents but did not get
involved until Dana-Farber filed this suit on behalf of
Dr. Freeman. In 2018, Dr. Honjo won the Nobel Prize
in Physiology or Medicine, and it is not without interest
that in his acceptance speech he credited Dr. Freeman
as a major collaborator in his work.
The parties’ inventorship dispute began in the
United States District Court for the District of Massachusetts. Dana-Farber brought suit alleging that Drs.
Freeman and Wood should be added as inventors on
Dr. Honjo’s patents. Dana-Farber presented an eightpoint theory justifying Drs. Freeman and Wood’s inventorship: (1) Dr. Freeman found the 292 sequence;
(2) Drs. Freeman and Wood jointly disclosed PD-L1; (3)
Drs. Freeman and Wood discovered that PD-1/PD-L1
binding inhibits T cell activation; (4) Dr. Freeman contributed the idea of treating cancer by blocking the
pathway in his April 2000 edits to the researchers’
journal article; (5) Dr. Freeman provided reagents that
Dr. Iwai used in her mouse model; (6) Dr. Freeman,
through Dr. Dorfman, discovered that human PD-L1 is
expressed across a number of tumors; (7) Drs. Freeman
and Wood discovered PD-L2; and (8) Drs. Freeman and
Wood developed relevant antibodies.
In a 111-page opinion, the district court considered
each of Dana-Farber’s points. Ultimately, the court
credited Drs. Freeman and Wood’s discovery of the
PD-L1 ligand, Dr. Wood’s discovery that PD-1/PD-L1
binding inhibits the immune response, Drs. Freeman
and Wood’s discovery that anti-PD-1 and anti-PD-L1

9a
antibodies can block the pathway’s inhibitory signal,
and Dr. Freeman’s immunohistochemistry experiments
confirming PD-L1 expression in various tumors as contributions significant to the conception of all six patents.
Ono appealed, and we have jurisdiction under
28 U.S.C. § 1295(a)(1).
DISCUSSION
District courts may order the correction of patent
inventorship by the U.S. Patent and Trademark Office
“on notice and hearing of all parties concerned.” 35
U.S.C. § 256(b). “[A] valid patent requires correct inventorship.” In re VerHoef, 888 F.3d 1362, 1365 (Fed.
Cir. 2018), as amended (May 7, 2018). Inventorship is a
question of law reviewed de novo, but the district
court’s underlying findings of fact are reviewed for
clear error. Vapor Point LLC v. Moorhead, 832 F.3d
1343, 1348 (Fed. Cir. 2016) (citing Gen. Elec. Co. v. Wilkins, 750 F.3d 1324, 1329 (Fed. Cir. 2014) and then Trovan, Ltd. v. Sokymat SA, Irori, 299 F.3d 1292, 1301
(Fed. Cir. 2002)).
35 U.S.C. § 116(a) provides the standard for joint
inventorship:
When an invention is made by two or more
persons jointly, they shall apply for patent
jointly and each make the required oath, except
as otherwise provided in this title. Inventors
may apply for a patent jointly even though (1)
they did not physically work together or at the
same time, (2) each did not make the same type
or amount of contribution, or (3) each did not
make a contribution to the subject matter of
every claim of the patent.

10a
Ono challenges the district court’s decision on two
bases: (1) the district court’s legal analysis of conception, and (2) the district court’s factual findings regarding inventorship. We address each argument in turn.
A
Ono argues that as a matter of law the district
court erred by relying on contributions of Drs. Freeman and Wood that were too far removed from the
claimed subject matter of the patents; it also argues
that these contributions were made public and were
hence in the prior art before the alleged conception. In
Ono’s view, the patents claim specific methods of treating cancer using PD-1 or PD-L1 blocking antibodies,
and Drs. Honjo and Minato discussed the possible use
of PD-1 for treating cancer in October 2000 in conjunction with data received from Dr. Iwai’s knockout mice
experiments. Thus, Ono submits, these experiments,
performed independently of Drs. Freeman or Wood,
were what led directly to the conception of the claimed
inventions, and the previous work was at most speculative because it was not in vivo. Ono also notes that the
patents were issued over Drs. Freeman and Wood’s
1999 provisional application as evidence that the patents claim treatments that were novel and nonobvious
over Drs. Freeman’s and Wood’s alleged contributions.
Ono also argues that Drs. Freeman’s and Wood’s
alleged inventive contributions should be deemed irrelevant to inventorship because their work with Dr. Honjo was published in October 2000 in the Journal of Experimental Medicine before conception of the patented
inventions. Ono urges us to adopt a legal rule that once
a contribution is made public, it “no longer qualifies as a
significant contribution to conception.” Appellants’ Br.
39.

11a
Dana-Farber responds that Ono offers an erroneous view of the law. According to Dana-Farber, Ono’s
rule would require each joint inventor to individually
have conceived the complete invention and have participated in a particular moment of conception, which is
inconsistent with law.
We agree with Dana-Farber. Ono asks us to adopt
an unnecessarily heightened inventorship standard.
“[A] joint invention is simply the product of a collaboration between two or more persons working together to
solve the problem addressed.” Fina Oil & Chem. Co. v.
Ewen, 123 F.3d 1466, 1473 (Fed. Cir. 1997) (citing Burroughs Wellcome Co. v. Barr Labs., Inc., 40 F.3d 1223,
1227 (Fed. Cir. 1994)). To be a joint inventor, one must:
(1) contribute in some significant manner to the
conception or reduction to practice of the invention, (2) make a contribution to the claimed
invention that is not insignificant in quality,
when that contribution is measured against the
dimension of the full invention, and (3) do more
than merely explain to the real inventors wellknown concepts and/or the current state of the
art.
Pannu v. Iolab Corp., 155 F.3d 1344, 1351 (Fed. Cir.
1998); quoted in VerHoef, 888 F.3d at 1366. There is no
“explicit lower limit on the quantum or quality of inventive contribution required for a person to qualify as
a joint inventor.” Eli Lilly & Co. v. Aradigm Corp.,
376 F.3d 1352, 1358 (Fed. Cir. 2004) (quoting Fina Oil,
123 F.3d at 1473). “People may be joint inventors even
though they do not physically work on the invention
together or at the same time, and even though each
does not make the same type or amount of contribu-

12a
tion.” Burroughs Wellcome, 40 F.3d at 1227 (citing 35
U.S.C. § 116).
Ono attacks the inventorship case for Drs. Freeman and Wood on the ground that they failed to participate in certain experiments that led to the conception
of the claimed invention, but the statute and our case
law make clear that joint inventors need not contribute
to all aspects of a conception. See, e.g., Eli Lilly, 376
F.3d at 1359–59; 35 U.S.C. § 116(a). That Drs. Freeman
and Wood were not present for or participants in all the
experiments that led to the conception of the claimed
inventions does not negate their overall contributions
throughout their collaboration with Dr. Honjo.
Ono’s argument that work from Drs. Honjo, Freeman, and Wood’s collaboration was too speculative until
the October 2000 knockout mice studies is likewise
misguided. Conception is the touchstone of the joint
inventorship inquiry, Sewall v. Walters, 21 F.3d 411,
415 (Fed. Cir. 1994), and conception is complete when
an idea is definite and permanent enough that one of
skill in the art could understand the invention, Burroughs Wellcome, 40 F.3d at 1228. An inventor need
not know, however, that an invention will work for its
intended purpose in order for conception to be complete, as verification that an invention actually works is
part of its reduction to practice. Id. (citing Applegate v.
Scherer, 332 F.2d 571, 573 (CCPA 1964) and Oka v.
Youssefyeh, 849 F.2d 581, 584 n.1 (Fed. Cir. 1988)).
While Dr. Iwai’s work provided important in vivo data,
in vivo verification is not required for a conception to
be definite and permanent. See In re Isaacs, 347 F.2d
887, 889 (CCPA 1965) (holding that in vivo testing was
not required to establish utility for claims to interferon). Moreover, the record is clear that Dr. Iwai’s work
was conducted after Dr. Freeman had shown expres-

13a
sion of PD-L1 in human tumors and Dr. Honjo had
shown that PD-L1 expression causes tumor growth, so
as a factual matter, PD-L1’s potential utility in treating
human cancers was developed jointly with Dr. Freeman before Dr. Iwai’s work.
Ono also argues that the Honjo patents were issued
over Drs. Freeman and Wood’s 1999 provisional patent
application, so the latter contributions were thus not
significant to the dispute over inventorship of Dr. Honjo’s patents. As a factual matter, it is unclear that Drs.
Freeman and Wood’s contributions to the inventions
are co-extensive with the disclosure of their provisional
application. Regardless, joint inventorship does not
depend on whether a claimed invention is novel or nonobvious over a particular researcher’s contribution.
Collaboration and concerted effort are what result in
joint inventorship. Eli Lilly, 376 F.3d at 1359. The
novelty and nonobviousness of the claimed inventions
over the provisional application are not probative of
whether the collaborative research efforts of Drs. Honjo, Freeman, and Wood led to the inventions claimed
here or whether each researcher’s contributions were
significant to their conception.
Ono also urges us to hold categorically that research made public before the date of conception of a
total invention cannot qualify as a significant contribution to conception of the total invention. Such a rule
would ignore the realities of collaboration, especially
that collaboration generally spans a period of time and
may involve multiple contributions. It is certainly true
that simply informing another about the state of the
prior art does not make one a joint inventor. Hess v.
Advanced Cardiovascular Sys., Inc., 106 F.3d 976, 981
(Fed. Cir. 1997) (holding that explaining the state of the
art and providing well-known information found in

14a
textbooks was insufficient for joint inventorship). But
a collaborative enterprise is not negated by a joint inventor disclosing ideas less than the total invention to
others, especially when, as here, the collaborators had
worked together for around one year prior to the disclosure, and the disclosure occurred just a few weeks
prior to conception. Inventorship of a complex invention may depend on partial contributions to conception
over time, and there is no principled reason to discount
genuine contributions made by collaborators because
portions of that work were published prior to conception for the benefit of the public. Earlier publication of
an invention is obviously a potential hazard to patentability, but publication of a portion of a complex invention does not necessarily defeat joint inventorship of
that invention, and it does not here.
B
Next, Ono raises a series of challenges to the district court’s factual analysis for each patent. We begin
where Ono focuses the majority of its argument, the
’474 patent.
i. ’474 patent
Claim 1 of the ’474 patent recites a “method for
treatment of a tumor in a patient, comprising administering to the patient a pharmaceutically effective
amount of an anti-PD-1 monoclonal antibody.” ’474 patent col. 25 ll. 13–15. According to Ono, Dr. Freeman’s
alleged contribution to discovering PD-L1 was locating
the 292 sequence in the BLAST database, but he
played no meaningful role in the discovery that the PD1/PD-L1 pathway is inhibitory. Ono also contends that
Dr. Freeman’s work is not a significant contribution to
the invention of the ’474 patent because the ’474 patent

15a
claims rely on anti-PD-1 antibodies, not PD-L1 antibodies.
Ono argues that Dr. Wood likewise should not be
credited as a joint inventor on the ’474 patent because
his work on the PD-L1 pathway was not a significant
contribution to the claims. Ono submits that the district court over-stated Dr. Wood’s contributions and
that Dr. Wood’s work merely confirmed information
that Dr. Honjo had already discovered.
Dana-Farber responds that Ono failed to argue
that the inventors’ contributions differ from patent to
patent before the district court. According to DanaFarber, “the claimed methods are all based on conception of the same core invention: blocking the PD-1/PDL1 interaction so that the tumor cannot use the pathway to evade immune system attack.” Appellees’ Br.
41 (emphasis omitted). Dana-Farber cites the district
court’s fact finding that knowing the structure and
function of PD-L1 was essential to all the claimed inventions.
We agree with Dana-Farber, and with the district
court, that Drs. Freeman and Wood are joint inventors
of the ’474 patent. The ’474 patent claims use of antiPD-1 antibodies in treating cancer and does not explicitly mention PD-L1. But PD-1 is just a receptor. Unless one also knows that the PD-1 receptor binds to at
least one ligand that inhibits the immune response,
such as PD-L1, there would be no reason to use antiPD-1 antibodies to treat tumors. The ’474 patent
claims need not explicitly recite PD-L1 for research on
PD-L1 to have been a significant contribution to conception of the invention.
The record certainly confirms this reality. The district court credited testimony from Dana-Farber’s ex-

16a
pert, Dr. Kenneth Murphy, that not all antibodies that
bind to a receptor or ligand block the signal. Ono’s expert, Dr. Mark Greene, did not contest that Dr. Honjo
needed to understand the receptor-ligand interaction to
develop effective therapeutic antibodies. But even
apart from expert testimony, Dr. Honjo’s own efforts
underscore the importance of understanding the receptor-ligand relationship to conception. In 1992, Dr. Honjo discovered PD-1 and theorized that it played a role in
inhibiting the immune response. But despite having
this knowledge, Dr. Honjo still enlisted collaboration
with the Genetics Institute to search for ligands for
PD-1. Even under Ono’s view of the facts, knowledge
of PD-1 was itself insufficient for Dr. Honjo to conceive
of the method claimed in the ’474 patent.
It is clear based on the record that Drs. Freeman
and Wood both contributed to conception of the ’474 patent. Dr. Freeman connected the 292 sequence to PD-1
and directed important immunohistochemistry experiments revealing that several types of tumors express
PD-L1. Dr. Wood provided Dr. Honjo with the first
confirmation that the PD-1/PD-L1 interaction was inhibitory, supported by experimental data. Drs. Freeman and Wood’s work on PD-L1, Dr. Wood’s discovery
that the PD-1/PD-L1 interaction inhibits the immune
response, and Dr. Freeman’s discovery of PD-L1 expression by human tumors were significant building
blocks upon which the ’474 patent is built.
ii. The remaining patents
Each of the remaining patents recites treatment of
tumors, lung cancer, or melanoma by administering anti-PD-1 or anti-PD-L1 antibodies. Ono makes arguments about the remaining patents, but each argument
depends significantly on our acceptance of its argu-

17a
ments regarding the ’474 patent. As we concluded
above, discovery of PD-1 in a vacuum was insufficient
for conception. Drs. Freeman and Wood’s work linking
PD-1 to its ligand and expression in tumors was a significant contribution to each of these patents’ conception.
Ultimately, the decision in this appeal rests on the
extensive factual determinations made by the district
court relating to the work performed together by Drs.
Wood and Freeman, and Dr. Honjo that were not clearly erroneous, and the court made no errors of law.
CONCLUSION
We have considered the parties’ remaining arguments but find them unpersuasive. Because we conclude that the district court did not err in holding Drs.
Freeman and Wood should be included as joint inventors of the ’048, ’179, ’474, ’999, ’994, and ’899 patents,
we affirm the district court’s conclusions.
AFFIRMED

19a
APPENDIX B
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-2050
DANA-FARBER CANCER INSTITUTE, INC.,
Plaintiff-Appellee,
v.
ONO PHARMACEUTICAL CO., LTD.,
TASUKU HONJO, E.R. SQUIBB & SONS, L.L.C.,
BRISTOL-MYERS SQUIBB COMPANY,
Defendants-Appellants.
Appeal from the United States District Court for the
District of Massachusetts in No. 1:15-cv-13443-PBS,
Judge Patti B. Saris.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellants Bristol-Myers Squibb Company, E.R.
Squibb & Sons, L.L.C., Tasuku Honjo and Ono Phar-

20a
maceutical Co., Ltd. filed a combined petition for panel
rehearing and rehearing en banc. A response to the petition was invited by the court and filed by Appellee
Dana-Farber Cancer Institute, Inc. The petition was
referred to the panel that heard the appeal, and thereafter the petition for rehearing en banc was referred to
the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on October 23,
2020.
FOR THE COURT
October 16, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

21a
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
No. 15-13443-PBS
DANA-FARBER CANCER INSTITUTE, INC.,
Plaintiff,
v.
ONO PHARMACEUTICAL CO., LTD.;
TASUKU HONJO; E.R. SQUIBB & SONS, L.L.C.;
AND BRISTOL-MYERS SQUIBB, CO.,
Defendants.
May 17, 2019
Saris, C.J.
FINDINGS OF FACT,
CONCLUSIONS OF LAW, AND ORDER
*

*

*

INTRODUCTION
Plaintiff Dana-Farber Cancer Institute, Inc. (“Dana-Farber”) brings this civil action to correct inventorship of six disputed patents (“the Honjo patents”)
against Defendants Ono Pharmaceuticals Co., Ltd.
(“Ono”); Dr. Tasuku Honjo; E.R. Squibb & Sons,
L.L.C.; and Bristol-Myers Squibb, Co. (“BMS”). The
Honjo patents claim methods of cancer immunotherapy.
Dr. Honjo is the named inventor on these patents together with two colleagues from Kyoto University and
a researcher at Ono. Dana-Farber contends that Dr.

22a
Gordon Freeman, one of its professors, and Dr. Clive
Wood, formerly of the Genetics Institute (“GI”), made
significant contributions to the conception of the inventions in the Honjo patents through, among other things,
the discovery and characterization of the PD-L1 and
PD-L2 ligands, the discovery that the interaction between PD-1 and PD-L1 (“the PD-1/PD-L1 pathway”) is
inhibitory and could be blocked by antibodies, and the
discovery that PD-L1 is expressed in human tumors.1
Dana-Farber seeks to add Dr. Freeman and Dr. Wood
as joint inventors on the Honjo patents. Defendants
argue that Dr. Freeman’s and Dr. Wood’s contributions
to the inventions are not significant enough to make
them joint inventors.
After a bench trial, I find Dana-Farber has presented clear and convincing evidence that Dr. Freeman
and Dr. Wood are joint inventors of the six Honjo patents. Dr. Honjo collaborated extensively with both
Dr. Freeman and Dr. Wood from at least October 19992
until at least September 2000 through numerous meetings, joint authorship of scientific journal articles, written collaboration agreements, and sharing of experimental results and ideas. Indeed, Dr. Honjo himself
referred to his work with Dr. Freeman and Dr. Wood
as a collaboration on at least six occasions. While the
relationship among these three brilliant scientists
eventually soured, all three made significant contributions to the inventions. After a review of the extensive
1

Because Dr. Wood was involved in the collaboration at issue
while he worked at GI, GI intervened in this lawsuit in 2017, as did
its parent companies Wyeth LLC and Pfizer Inc. Pfizer, Wyeth,
and GI settled with Defendants on the eve of trial.
2

The collaboration between Dr. Wood and Dr. Honjo began in
September 1998.

23a
record and evaluation of the credibility of the witnesses, I conclude that both Dr. Freeman’s and Dr. Wood’s
contributions were significant in light of the dimension
of the full inventions claimed in the six Honjo patents,
which are all premised on blocking the inhibitory interaction of the PD-1/PD-L1 pathway to treat tumors that
express PD-L1 or PD-L2. Judgment shall enter for
Dana-Farber.
FINDINGS OF FACT
I.

SCIENTIFIC BACKGROUND3
A. The Immune System and Receptor-Ligand
Signaling

The immune system is the body’s defense against
foreign invaders, such as viruses, bacteria, and other
pathogens. The immune system works through a network of different types of cells, each with a specific
function. Dendritic cells, for example, detect the presence of pathogens and alert the rest of immune system.
B cells respond by producing proteins called antibodies
that bind to pathogens and neutralize them. The most
important immune cells for the purposes of this dispute
are T cells. T cells either coordinate the immune system’s response to pathogens (“helper” T cells) or eliminate infected or abnormal cells from the body (“killer”
or “cytotoxic” T cells). Killer T cells can help prevent
cancer from growing in the body. Once the immune
system recognizes cancer cells as abnormal, T cells attack the cancer cells in the same way they attack cells
infected with viruses and bacteria.

3

The scientific background is taken from the tutorials the
parties provided for the Court (Dkt. Nos. 384-388).

24a
In a healthy person, the immune system activates
to fight pathogens and then deactivates to protect
healthy cells from immune attack. Disorders of the
immune system come in two forms. An individual with
a suppressed immune response, such as someone with
AIDS, is highly susceptible to infections and other diseases. An overactive immune response, on the other
hand, can lead to autoimmune diseases in which the
immune system attacks healthy cells.
To maintain a healthy balance, the immune system
relies on communication among immune cells and between immune cells and other cells found in the body.
Cells can communicate through receptor-ligand interactions. A receptor is a protein located on the cellular
membrane that allows the cell to detect and respond to
its environment. The receptor receives a signal from
outside the cell and then transmits the signal to the internal components of the cell to trigger a response.
Ligands are proteins that bind to receptors to initiate
signaling. Ligands can be secreted by cells (“cytokines”) or found on the cell surface. When a ligand
binds to its receptor, it activates the intracellular signaling pathway that tells the cell with the receptor how
to respond.
Receptor-ligand interactions play a critical role in
regulating the immune system. In the presence of
pathogens, some receptors act as accelerators that “upregulate” or “stimulate” immune cells to increase the
immune response. To prevent activated immune cells
from damaging healthy cells, other receptors act as
brakes to “downregulate” or “inhibit” the immune response. The immune system maintains a balance via
the “on-off switches” of receptor-ligand signaling by
upregulating when it detects infected or abnormal cells
and downregulating once those cells are eliminated.

25a

The primary receptor on a T cell is known as the
T cell receptor (“TCR”). The TCR binds to foreign proteins known as antigens, which come from viruses, bacteria, or cancers. In combination with other signals,
binding between the TCR and antigen activates the
T cell to attack the pathogen.
T cells also have other receptors on their surface.
For example, a signal sent to the TCR does not activate
a T cell unless a ligand binds to one of its co-stimulatory
receptors. An important co-stimulatory receptor is
called CD28. CD28’s two ligands, B7-1 and B7-2, are
expressed on dendritic cells that have detected infection or cancer. In order for a T cell to activate, an antigen on the dendritic cell must bind to the TCR on the T
cell and a B7 ligand on the dendritic cell must also bind
to the CD28 receptor on the T cell. In the absence of an
infection or cancer, the dendritic cell will not express a
B7 ligand on its surface; if the TCR on the T cell interacts with the dendritic cell but does not receive a signal
through CD28, the T cell will not activate. This requirement for co-stimulation ensures the immune system does not activate unless pathogens are present.

26a
The B7 ligands also bind to an inhibitory receptor
called CTLA-4, which is only expressed on highly activated T cells. The B7 ligands bind more tightly to
CTLA-4 than CD28. Thus, when a T cell expresses
both CD28 and CTLA-4, CTLA-4 prevents the B7 ligands from activating the T cell through the CD28 receptor. CTLA-4 thereby ensures the immune system
does not run out of control and harm healthy cells.
The Honjo patents target another inhibitory receptor on T cells known as PD-1. When PD-1 binds to one
of its ligands, PD-L1 or PD-L2, the T cell receives an
inhibitory signal that prevents it from attacking the cell
expressing PD-L1 or PD-L2. Expression of PD-L1 or
PD-L2 on healthy cells protects the cells from immune
attack. Some tumor cells also express PD-L1 or PDL2, allowing them to masquerade as healthy cells by
activating PD-1 to send an inhibitory signal to T cells.

27a
Because of their importance in the immune system,
receptor-ligand interactions are an attractive target for
research and therapy. For example, scientists can develop monoclonal antibodies that bind to a specific receptor or ligand. Antibodies are named according to
the target protein to which they bind (e.g., anti-PD-1
antibodies). A monoclonal antibody can be designed to
trigger a receptor’s signal (“agonist”) or block a signal
either by binding to the ligand or the receptor (“antagonist”). If the receptor-ligand interaction stimulates
immune cells, an antagonistic monoclonal antibody decreases the immune response by blocking the stimulation. This can be useful for treating autoimmune diseases. By contrast, if the receptor-ligand interaction
inhibits immune cells, an antagonistic monoclonal antibody increases the immune response by blocking the
inhibition. This can be useful for treating viruses or
cancer.
The Honjo patents claim methods of treating cancer by using the body’s immune system to attack tumor
cells, a type of treatment known as cancer immunotherapy. Specifically, the methods involve administering antagonistic monoclonal antibodies that bind to PD1 or PD-L1 and block the inhibitory interaction between PD-1 and PD-L1/PD-L2. By blocking the signaling pathway, the methods aim to stimulate the immune
system to attack the tumor cells.
B. Experimental Methods
This case also requires understanding how scientists study genes, proteins, and pathways. The Basic
Local Alignment Search Tool (“BLAST”), a public database managed by the National Center for Biotechnology Information, contains millions of DNA sequences.
Many of these sequences are short fragments of genetic

28a
material called “Expressed Sequence Tags” (“ESTs”)
whose identity, complete sequence, and function are not
known. A search through the BLAST database allows
scientists to identify new DNA sequences and proteins
to study. For example, a scientist can input a reference
DNA sequence that encodes a known protein with a
known function, and the BLAST search will show ESTs
that share similar sequences with the reference DNA.
After identifying the full-length sequences, she can
then determine if they encode proteins with similar
functions to the known proteins.
Having identified a gene or protein of interest, she
can use complementary DNA (“cDNA”) and “Fc-fusion
proteins” to further study it. cDNA is a DNA sequence
that contains only the parts of a gene necessary for encoding a protein. By inserting cDNA into a vector, scientists can cause a wide variety of cells to express a
specific protein and then use those cells in experiments.
An “Fc-fusion protein” contains a generic “handle” (the
“Fc” region) that allows the protein to be easily manipulated and studied apart from the cell. The relevant
portion of the amino acid sequence of the protein of interest is attached to the handle. For example, PD-1 fusion protein contains the binding portion of the PD-1
receptor attached to a generic protein handle. The fusion protein can then be used to test whether PD-1
binds to various molecules and whether the expression
of PD-1 has an effect on the immune response.
To explore the function and structure of proteins,
scientists conduct both in vitro and in vivo experiments. In vitro experiments occur outside of a living
organism in test tubes, flasks, and other controlled environments. They allow scientists to learn about a protein without worrying about confounding effects from
other molecules within a living organism. For example,

29a
mixing T cells expressing a receptor with cells expressing the receptor’s ligand and then observing the number of T cells shows whether the signaling pathway
stimulates or inhibits the immune response. Another in
vitro experiment, known as immunohistochemistry
(“IHC”), involves administering a monoclonal antibody
to thin sections of tissue to determine whether the molecule to which the antibody binds is present.
In vivo experiments are conducted using living organisms. Scientists use in vivo experiments to study
proteins in their biological context. “Knockout mouse”
studies are one type of in vivo experiment. A “knockout mouse” is a mouse without the gene that encodes a
particular protein and therefore is unable to make the
protein. Observing the characteristics of the knockout
mouse reveals the role the protein plays in the organism. For example, if knocking out a gene leads the
mouse to have an abnormally active immune system,
the protein encoded by that gene likely has an inhibitory effect on the immune system. Mouse tumor models
are another type of in vivo experiment used to study
cancer. In these experiments, mice are inoculated with
tumor cells, and specific signaling pathways or proteins
are then blocked in some of the mice. If the tumors
grow more or less quickly in the altered mice than in
normal mice, the tumor model suggests that the pathway or protein has an effect on tumor growth.
II. DISCOVERIES OF PD-1 AND 292
A. Dr. Honjo Discovers the PD-1 Receptor
Dr. Tasuku Honjo is a professor at the medical
school at Kyoto University. T4-8:22-23, 12:24-25.4 Af4

Record citations are to the trial transcripts (e.g., “T4” is the
transcript from the fourth day of trial), deposition transcripts

30a
ter receiving his medical degree and PhD in biochemistry in Japan, he came to the United States to work at
the Carnegie Institution of Washington in Baltimore,
Maryland where he began to study immunology. T410:6-24. He then worked at the National Institutes of
Health before returning to Japan. T4-11:5-23. He has
been a professor at Kyoto University since 1984. T412:16-25.
In the early 1990s, Dr. Honjo discovered a new receptor expressed on certain mouse immune cells. T414:19-21, 19:10-15; JTX-0320.0001. He named the molecule “PD-1” because he believed the receptor was involved in programmed cell death, a process by which
the body kills off old cells when new cells generate. T416:10-17:6. He published his discovery in 1992. T4-16:19; JTX-0320.0001. Dr. Honjo isolated the human DNA
sequence for the gene that encodes PD-1 and, along
with researchers from another Japanese University,
developed antibodies against both mouse and human
PD-1 to help study its function. T4-20:15-21:1, 22:2-23:5;
Iwai Depo. 41:25-43:3; JTX-0272.0001; JTX-0373.0001;
JTX-0429.0011. In 1996, he published another article
describing the expression of PD-1 in mouse cells and
the PD-1 fusion protein he was using to study the molecule. T4-22:2-11, 131:12-132:7; JTX-0272.0001-2. His
early experiments demonstrated that PD-1 was not, in
fact, involved in programmed cell death. T4-17:7-14.
To learn more about PD-1’s function, Dr. Honjo and
Dr. Nagahiro Minato, a colleague studying tumor imsubmitted in lieu of live testimony (e.g., “Honjo Depo” is the transcript submitted from Dr. Honjo’s deposition), or a document from
the joint exhibit list (e.g., “JTX-0320”). Pincites for transcripts are
to the page and line numbers, and pincites for exhibits are to the
page number.

31a
munology, began experiments with PD-1 knockout
mice. T4-14:1-18, 23:21-25, 29:3-7; T6-89:18-24; JTX0354.0001. They discovered that mice without the gene
encoding PD-1 showed symptoms typical of autoimmune disease, suggesting that PD-1 is involved in inhibiting the immune response. T4-26:11-16; T6-93:1294:12; JTX-0354.0001. Dr. Honjo and Dr. Minato submitted these results for publication on April 12, 1999.
T2-136:18-137:8; JTX-0354.0010. Their article was published in Immunity in August 1999 and described PD-1
as “a negative regulator of immune responses.” JTX0354.0001.
Once Dr. Honjo and Dr. Minato discovered that
PD-1 inhibited the immune system through their
knockout mouse experiments, they discussed the possibility that altering the PD-1 signal could have therapeutic applications for autoimmune diseases, infectious
diseases, organ transplantation, and cancer. T4-29:2330:8; T6-129:19-25; Okazaki Depo. 50:25-51:13. They
planned to conduct experiments involving tumors but
did not do so at the time due to the limited manpower
in their laboratories. T4-30:9-17; T6-98:22-99:8.
Based on its structure, Dr. Honjo knew PD-1 was
in the same family of proteins as CTLA-4, another inhibitory receptor. T4-31:6-9. But he did not fully understand the molecular mechanism through which PD-1
had its inhibitory effect because he had not identified
its ligand. T4-28:3-24, 32:16-25, 141:12-142:6; JTX0354.0008. Multiple students in his laboratory tried and
failed to find PD-1’s ligand. T4-143:8-13.
In mid-1998, Dr. Honjo tasked a new graduate student, Dr. Yoshiko Iwai, with the ligand search. T438:8-24, 144:5-13; Iwai Depo. 12:2-25. At the May 21,
1999 meeting of Dr. Honjo’s laboratory, Dr. Iwai re-

32a
ported her preliminary results. T4-42:23-43:3; JTX0125.0021. She identified binding of various strengths
with human and mouse PD-1 fusion protein in a number
of mouse cells she had tested, including cells derived
from mouse white blood cell tumor lines. T4-44:24-45:5,
147:8-149:4; Iwai Depo. 14:2-24; JTX-0125.0021. She also reported weak binding with PD-1 in one human B
cell cancer line called Daudi. T4-47:17-48:1, 157:3-18;
JTX-0125.0021.
Although these results showed binding with the
PD-1 fusion protein, they did not identify what molecule the protein was binding to. T4-146:10-147:7; Iwai
Depo. 14:10-24, 15:5-12, 68:20-25, 70:9-17; Honjo Depo.
40:17-25. Dr. Iwai recognized that her experiment
could have shown “false positives” because of the type
of fusion protein she used. T4-48:2-19; JTX-0125.0022.
About a month after disclosing her results, she reported at another laboratory meeting that PD-1’s “[l]igand
may express on B cell lines?!” JTX-0125.0024. She
planned to conduct additional experiments using different fusion proteins to identify the ligand, but she had to
take a leave of absence at the end of the summer due to
illness. T4-49:2-8, 50:12-22, 51:11-18, 161:16-162:15; Iwai
Depo. 13:13-14:5, 72:15-73:3, 82:7-19. The results of Dr.
Iwai’s experiments were never published. T4-51:1-9,
164:10-12.
B. Dr. Honjo Asks for Help Identifying the Ligand for PD-1 and Begins to Collaborate with
Dr. Wood in September 1998
In September 1998, as Dr. Iwai was beginning her
experiments to identify the ligand for PD-1, Dr. Honjo
flew to Cambridge, Massachusetts for a meeting with
representatives from Ono, a Japanese pharmaceutical
company, and GI, a Cambridge biotechnology research

33a
and development company. T2-8:23-9:2, 20:3-6; T4-32:212; JTX-0432.0001. This meeting was part of a threeway research collaboration among GI, Dr. Honjo, and
Ono that had been established in the mid-1990s. T218:6-19:7; JTX-0140; JTX-0142; Dkt. No. 314-1 ¶ 7
(“Stip.”). This “signal sequence trap” (“SST”) collaboration involved using yeast-based traps to identify signaling proteins secreted by cells that could then be
studied as potential targets for new drug candidates.
T2-17:1-18:5; JTX-0140.0001-2. The ultimate goal of the
collaboration was “the discovery, development and
commercialization of novel pharmaceutical products.”
JTX-0142.0007. GI, Dr. Honjo, and Ono held core collaboration meetings biannually, which alternated between Cambridge and Japan. T2-19:13-21.
While in Cambridge, Dr. Honjo asked Dr. Steve
Clark, the coordinator at GI for the SST collaboration,
if he had any ideas for how to identify the PD-1 ligand.
T4-32:7-19. Dr. Clark proposed using GI’s newly acquired Biacore machine, which would allow for quick
screening of many ligand candidates. T4-34:4-12, 35:911. Because Dr. Honjo did not have access to a Biacore
machine at Kyoto University, he agreed. T4-35:7-8.
To facilitate this collaboration, Dr. Clark introduced Dr. Honjo to Dr. Clive Wood, the director of molecular immunology at GI, who also participated in the
collaboration meeting that day. T2-13:13-15, 20:2-6; T436:18-22; JTX-0792.0004. Dr. Wood earned a PhD in
biochemistry from Imperial College London. T2-8:2-6.
He began working at GI in 1986 as a staff scientist. T28:19-22. In 1998, he was promoted to serve as the director of molecular immunology. JTX-0792.0004. He
left GI in the early 2000s and now works as a corporate
senior vice president responsible for global research

34a
activities for Boehringer Ingelheim. T2-7:10-14; JTX0792.0004.
Dr. Wood and Dr. Honjo had dinner the night of the
September 1998 meeting and discussed Dr. Honjo’s
work on PD-1. T2-20:6-10; JTX-0432.0001. Dr. Honjo
explained that he had discovered PD-1 and its inhibitory function but had not been able to find its ligand. T2134:16-135:3. Dr. Wood agreed to collaborate with him
to identify the ligand. T2-129:4-24.
On September 22, about a week after the meeting,
Dr. Honjo sent Dr. Wood a letter with more details
about their collaboration. JTX-0432.0001. Dr. Wood
responded on September 28 confirming his interest.
T2-22:6-14; JTX-0436.0001. He also told Dr. Honjo that
he thought the PD-1 receptor could be a candidate for a
collaboration GI was establishing with Cambridge Antibody Technology (“CAT”) to develop antibodies as
potential therapeutics. T2:22:21-23:6; JTX-0436.0001.
The following day, Dr. Wood submitted a form to GI
seeking approval for the PD-1 project and permission
to exchange materials with Dr. Honjo. T2-23:14-24:6;
JTX-0437.0001. Dr. Honjo sent PD-1 fusion proteins
and cDNA developed in his laboratory to Dr. Wood to
use in experiments to identify the ligand. T2-130:18-25;
T4-36:23-37:2. Soon after their collaboration began, Dr.
Honjo provided Dr. Wood with a confidential draft of
his Immunity article that described his PD-1 knockout
mouse experiments. T2-135:12-136:22; T4-191:9-192:8.
As part of these preliminary discussions, Dr. Wood and
Dr. Honjo decided to add the PD-1 project to the existing SST collaboration, which GI, Dr. Honjo, and Ono
formally agreed to in March 1999. T2-21:9-13, 26:2127:10; Shibayama Depo. 82:16-19, 84:18-85:8; JTX0450.0003; JTX-0471.0001.

35a
When he started work on the project, Dr. Wood
recognized that the PD-1 receptor looked like the
CTLA-4 receptor found on T cells. T2-28:6-9. Accordingly, because B7-1 and B7-2 were ligands for CTLA-4,
he hypothesized that the ligand for PD-1 would also be
a member of the B7 family. T2-28:10-14, 29:11-12, 31:37, 69:8-16; JTX-0305.0002. And since the interaction
between CTLA-4 and the B7 ligands inhibits T cells, he
suspected that the interaction between PD-1 and its
ligand would also be inhibitory. T2-29:12-14. However,
his initial experiments failed to identify a B7 ligand that
bound to PD-1. T2-35:14-17.
C. Dr. Freeman Discovers the 292 Ligand in July
1998
Dr. Gordon Freeman is a professor of medicine in
the department of medical oncology at Dana-Farber
and Harvard Medical School. T3:10:20-24, 11:18-22.
Dana-Farber is a nonprofit cancer treatment and research center located in Boston, Massachusetts. Stip.
¶¶ 1, 26. Dr. Freeman earned a PhD from Harvard
University in microbiology and molecular genetics in
1979. T3-9:8-13. He then began a postdoctoral fellowship at Dana-Farber working on tumor immunology.
T3-9:14-17, 11:23-12:3. He became an assistant professor in 1994. T3-12:12-15.
In July 1998, shortly before Dr. Honjo and Dr.
Wood’s meeting in Cambridge, Dr. Freeman began a
search for novel B7 ligands. T3-22:14-23:1. Dr. Freeman’s work had focused for almost fifteen years on B7
ligands, and he had discovered B7-2 and its role in immune regulation. T3-12:16-21, 17:21-18:11, 19:1-12,
20:22-21:1. Given the important interactions between
the B7-1 and B7-2 ligands and the CD28 and CTLA-4
receptors, he suspected there might be similar ligands

36a
with immunological activity. T3-22:18-24. On July 27,
1998, Dr. Freeman ran a BLAST search with a sequence of 208 amino acids that forms part of binding
portion of the B7-1 molecule. T3-25:25-26:18, 27:16-18,
150:13-21; JTX-0305.0002. The search produced a list of
twelve ESTs that resembled the B7-1 sequence. T326:9-12, 151:11-14; JTX-0431.0001. Two of these twelve
ESTs were part of the same sequence and came from a
human ovarian tumor, which Dr. Freeman found interesting because the known B7 molecules were only expressed in immune cells, not in solid tumors. T3-28:924, 151:15-17; JTX-0431.0001. He decided to investigate
this new sequence, which he called “292” after its label
in the database. T3-28:24, 31:3-5. He generated the full
human cDNA sequence for the 292 protein. T3-30:2531:1. Through work on similar mouse DNA sequences
found in the BLAST database, he also identified the
full-length sequence for mouse 292. T3-33:23-34:7.
In early 1999, Dr. Freeman investigated 292’s expression and immunologic activity. T3-32:13-20. Although the ESTs came from a human ovarian tumor, his
experiments showed that immune cells also express
292. T3-33:6-17. Given the similarities with B7-1 and
B7-2, he thought 292 might affect the immune response.
T3-33:18-22. When he exposed resting T cells to cells
expressing the 292 protein, the T cells were mildly
stimulated, suggesting that 292 does play a role in immune regulation. T3-35:6-23, 36:16-21.
Dana-Farber and GI had an existing oncology
partnership, which included work on B7 ligands and related signaling molecules. T2-33:20-34:6; T3-21:6-19;
Collins Depo. 17:3-6. Because of this existing collaboration and GI’s expertise in making fusion proteins, Dr.
Freeman thought GI could help with additional experiments on 292’s biological function, including finding its

37a
receptor. T2-34:15-17; T3-38:4-13. In July 1999, he
reached out to Dr. Mary Collins at GI and told her what
he knew about 292. T2-34:12-15; T3-38:24-39:13; Collins
Depo. 34:8-9; JTX-0480.0001. Dr. Collins agreed that
GI could help, and Dr. Freeman sent GI the genetic
materials encoding 292. T2-35:1-4; T3-39:14-18; JTX0480.0001. Dr. Freeman and researchers at GI had a
number of discussions over the next few months about
Dr. Freeman’s experiments. T3-41:19-42:2. Because
292 appeared to be a B7 ligand, they thought its receptor would be similar to CD28 and CTLA-4 (though Dr.
Freeman had already shown that 292 did not bind to
either receptor). T3-42:3-15.
On August 23, 1999, shortly after reaching out to
GI, Dr. Freeman filed a provisional patent application.5
T3-39:22-24, 74:23-75:5; JTX-0043.0001. The application
included his experimental results showing that 292
stimulated resting T cell activity. T3-75:22-78:21,
158:23-159:18; JTX-0043.0096, 108-109. Dr. Freeman
hypothesized that 292, like B7-1 and B7-2, might have
both inhibitory and stimulatory receptors. T3-154:6-17.
Accordingly, the application listed embodiments in
which anti-292 antibodies stimulate an immune response and others in which they inhibit an immune response. T3-154:6-156:24; JTX-0043.0008. The application identified the normal tissue cells on which Dr.
Freeman had found 292 expression but did not mention
that he discovered the molecule through ESTs from a
human ovarian tumor.
T3-157:17-158:22; JTX0043.0095. The U.S. Patent and Trademark Office
(“PTO”) issued multiple patents to Dr. Freeman based
on this application. T3-160:7-9. The claims of at least
5

The patent application refers to the molecule as “B7-4.”
JTX-0043.0002. B7-4 and 292 are the same molecule. T3-39:22-24.

38a
one patent were subsequently cancelled because, as
discussed below, Dr. Lieping Chen at the Mayo Clinic
discovered the amino acid sequence for the same molecule before Dr. Freeman. T3-161:2-23. Dr. Freeman
did not know about Dr. Chen’s discovery, which was
not published until December 1999, at the time he made
his own independent discovery. T3-161:12-23.
A few days after this application, Dr. Freeman and
Dr. Vicki Boussiotis, a member of his laboratory, began
an experiment to test the effect of 292 on activated
T cells, which express certain receptors that resting
T cells do not. T3-37:5-24, 78:22-79:5, 79:16-80:18; JTX0229.0323, 346; JTX-0778.0038. Unlike the prior experiment with resting T cells, this experiment showed an
inhibitory effect on the immune response. T3-37:2538:2, 79:6-11, 85:20-22, 86:7-24, 163:9-21; JTX-0778.0040;
JTX-0801.0021. Dr. Freeman concluded that 292 primarily inhibits activated T cells. T3-180:8-25.
D. Dr. Wood Connects the PD-1/PD-L1 Pathway
in September 1999
During the summer of 1999, while Dr. Wood was
searching for the ligand for PD-1 for Dr. Honjo, he became involved in GI’s work with Dr. Freeman to study
292. T3-44:21-25. Because he thought that the ligand
for PD-1 would be a B7 ligand and he knew from Dr.
Freeman that 292 was a B7 ligand, he tested whether
PD-1 and 292 bound together. T2-35:5-22; Collins Depo.
34:10-18. Dr. Wood’s initial experiment showed that
they did. T2-35:17-22; Collins Depo. 34:19-22.
Dr. Wood emailed Dr. Honjo about this preliminary
result on September 7, 1999. JTX-0485.0001. He described his “significant progress” on the ligand search
and his “encouraging” results. T2-40:19-41:10; T4-53:14-

39a
54:7; JTX-0485.0001. To facilitate additional confirmatory experiments, he asked Dr. Honjo for more PD-1
fusion protein, which Dr. Honjo provided. T2-40:1941:10; T4-55:21-57:5; JTX-0485.0001. Around the same
time, Dr. Wood told Dr. Freeman he had identified a
receptor for 292 that came from Dr. Honjo. T2-45:7-14;
T3-45:1-13.
To ensure his initial experiment did not show a
false positive, Dr. Wood ran confirmatory experiments.
T2-36:6-24. Dr. Wood followed up with another email to
Dr. Honjo on October 4 to report that these experiments confirmed that he had identified the ligand for
PD-1. T2-42:22-43:22; T4-57:9-16; JTX-0489.0001. Dr.
Wood also told Dr. Honjo that the ligand came from Dr.
Freeman. T2-42:24-43:22; JTX-0489.0001. Dr. Wood
proposed that the three men meet during the upcoming
SST collaboration meeting.
T2-42:22-43:22; JTX0489.0001. Dr. Honjo responded with excitement at Dr.
Wood’s discovery and agreed to the upcoming meeting.
T2-44:6-19; JTX-0492.0001.
After identifying 292, which the three scientists
began to call “PD-L1,”6 Dr. Wood ran experiments to
test the immunological effect of PD-L1. T2-47:14-49:15;
JTX-0501.0003.
These experiments confirmed Dr.
Wood’s hypothesis that PD-L1 inhibits the immune response. T2-47:14-48:14; JTX-0501.0003. He conveyed
these results via email to Dr. Honjo on October 12. T247:10-22; JTX-0501.0003. In his email, Dr. Wood also
laid out an outline for a journal article he, Dr. Freeman,
6

From the record, it is unclear exactly when the trio began
referring to “292” as “PD-L1.” For ease of comprehension, the
Court will call the molecule “292” when referring to events before
Dr. Wood discovered that the molecule is a ligand for PD-1 and
“PD-L1” when referring to events after this discovery.

40a
and Dr. Honjo could write about the discovery of PDL1. T2-49:16-50:4; JTX-0501.0003. Finally, Dr. Wood
asked Dr. Honjo to send him his anti-PD-1 antibodies
so that he could test blocking of the PD-1/PD-L1 pathway. T2-147:4-25; JTX-0501.0003-4. In response, Dr.
Honjo noted that he “appreciate[d] [Dr. Wood’s] strong
collaboration without which this work had not been accomplished so soon” and agreed to send Dr. Wood his
antibodies. T2-55:9-16, 148:19-25; JTX-0501.0001, 7.
Dr. Wood performed preliminary experiments that
showed that the human and mouse antibodies bound
strongly to human and mouse PD-1, respectively, and
that the mouse antibody blocked the interaction between PD-1 and PD-L1. T2-61:10-63:5, 156:22-157:14;
JTX-0086.0017.
Dr. Freeman emailed Dr. Honjo on October 22,
three days before their scheduled meeting. T3-46:2447:6; JTX-0505.0001. Dr. Freeman expressed his excitement about the possibility of a research collaboration on the PD-1/PD-L1 pathway. T3-47:7-17; JTX0505.0001. Dr. Honjo responded that he was looking
forward to their meeting. T3-48:3-12; JTX-0507.0001.
These emails were the first communication between the
two. T3-48:6-8.
III. OCTOBER 25, 1999 COLLABORATION MEETING
CAMBRIDGE

IN

Dr. Freeman, Dr. Wood, and Dr. Honjo, along with
representatives from Ono and GI, met as planned on
October 25, 1999 during the prescheduled SST collaboration meeting in Cambridge, Massachusetts. T2-55:1719, 56:2-13; T3-48:13-22; T4-58:3-5; JTX-0090.0001. Dr.
Wood began the meeting by summarizing what he
knew about PD-1 from Dr. Honjo’s research. T2-156:821; T4-67:19-23; JTX-0086.0002. He then described how

41a
the similarities in the structure of PD-1 and CTLA-4
triggered his hypothesis that PD-1’s ligand would be a
B7 ligand. T2-57:2-23; Shibayama Depo. 106:19-107:12;
JTX-0086.0003-4; JTX-0097.0003. He shared experimental results demonstrating that PD-L1 binds to PD1 but not to CTLA-4. T2-57:2-23, 58:16-22; JTX0086.0005-9; JTX-0097.0004. He ended with graphs
showing his newest data on the inhibitory effect of PDL1 and the successful blocking of the pathway with Dr.
Honjo’s antibodies. T2-59:12-63:5; T3-51:17-23, 53:755:6; JTX-0086.0013-17.
Dr. Freeman presented next. T2-64:11-13; T3-55:78; JTX-0090.0001. He shared that the 292 ESTs came
from a human ovarian tumor. T2-64:4-10; T3-58:1-7;
JTX-0095.0001; JTX-0456.0003. He explained that PDL1 shares around 20% of its amino acid sequence, which
he provided, with B7-1 and B7-2 but does not bind to
either CD28 or CTLA-4.
T3-59:22-61:21; JTX0095.0003-6; JTX-0456.0003. Finally, he noted that 292
is expressed in certain types of cells, such as placenta,
lung, and heart cells, but not in certain tumor cells. T466:10-67:7; JTX-0095.0009.
Dr. Honjo presented last of the three. T2-64:14-15;
T3-61:22-62:1; JTX-0090.0001. He described his recently published data showing autoimmune-like symptoms
in PD-1 knockout mice. T2-64:22-65:2; T3-62:2-8; T458:20-59:8; JTX-0091.0001. He presented unpublished
knockout mouse data that also suggested PD-1 inhibits
the immune response. T2-152:7-15; T4-59:13-60:15;
JTX-0091.0012-14; JTX-0097.0004. He did not mention
cancer during his presentation. T2-64:22-65:2; T3-63:79.
During the meeting and at dinner, Dr. Freeman,
Dr. Wood, and Dr. Honjo agreed to continue to collabo-

42a
rate to study the PD-1/PD-L1 pathway.7 T2-65:12-24;
T3-65:12-19. They discussed developing further tools to
study the pathway, such as new fusion proteins and antibodies, and conducting additional experiments, including more knockout mouse studies. T3-63:10-18.
IV. DEVELOPMENTS BETWEEN
MAY 2000 MEETINGS

THE

OCTOBER 1999

AND

A. Dr. Freeman and Dr. Honjo Exchange Reagents, and Dr. Wood and Dr. Honjo Run Experiments Confirming the Inhibitory Effect of
the PD-1/PD-L1 Pathway in November and
December 1999
Immediately after the October 25, 1999 meeting in
Cambridge, Dr. Freeman and Dr. Honjo began the process of exchanging reagents.
T3-67:1-16; JTX0508.0001; JTX-0510.0001; JTX-0517.0001. They executed a Material Transfer Agreement in which Dr.
Freeman agreed to send Dr. Honjo mouse and human
PD-L1 cDNA and transfected cells for use solely in
their “collaborative efforts.” T3-68:7-70:2, 71:16-20; T482:18-84:5; Honjo Depo. 91:18-92:25; JTX-0159.0001. In
a subsequent email to Dr. Freeman, Dr. Honjo expressed his pleasure that they had “reached at least a
tentative agreement to push [their] collaboration as
7

Dr. Wood remembers discussing the possibility of a second,
stimulatory receptor for PD-L1 with Dr. Freeman and Dr. Honjo,
T2-63:16-23, but it is not clear if he was referring to a conversation
during the October 1999 meeting. In addition, Dr. Freeman remembers mentioning the possibility of treating cancer by manipulating the PD-1/PD-L1 pathway in a conversation with Dr. Honjo
and representatives from GI at lunch. T3-63:19-64:9. Since no
witness or document corroborated this testimony, the Court is not
persuaded that Dr. Freeman is remembering the timing of this
conversation accurately.

43a
soon as possible.” JTX-0517.0001. Dr. Freeman sent
his own reagents to Dr. Honjo in November 1999. T371:21-72:3; Honjo Depo. 99:24-100:14; JTX-0522.0001;
JTX-526.0001. Dr. Honjo sent his PD-1 reagents to Dr.
Freeman pursuant to a separate agreement. T3-70:314; JTX-0517.0001.
Meanwhile, Dr. Wood continued to run experiments exploring the function of the PD-1/PD-L1 pathway. JTX-0433.0026. On November 25, he reported to
Dr. Honjo that he was getting “confusing” results with
no “clearly reproducible effects.” Id. A week later, the
December issue of Nature Medicine was released.
JTX-0433.0027. It included an article by Dr. Lieping
Chen at the Mayo Clinic reporting the sequence for a
molecule (“B7-H1”) that was molecularly identical to
PD-L1. T2-66:21-67:17; T4-75:10-25; JTX-0433.0027. In
the article, Dr. Chen did not identify B7-H1’s receptor,
and he reported that B7-H1 has a stimulatory effect on
the immune system. T2-66:21-67:17; T4-88:10-13; JTX0433.0027. Dr. Wood emailed Dr. Honjo about the Chen
article the day it came out. T2-66:21-25; JTX-0433.0027.
He expressed surprise that Dr. Chen had found that
B7-H1 has a stimulatory effect because the data he and
Dr. Honjo had generated showed that PD-L1 is inhibitory. T2-67:4-9; JTX-0433.0027. Dr. Wood suggested
that the existence of a second, stimulatory receptor
could explain Dr. Chen’s results and some data of his
own showing stimulation. T2-67:14-17; T4-76:4-11; JTX0433.0027.
Once he received Dr. Freeman’s PD-L1 reagents,
Dr. Honjo ran his own in vitro experiments on the function of the PD-1/PD-L1 pathway. T4-77:1-9. These experiments showed that the pathway inhibited the immune response. Id. Unlike in Dr. Wood’s experiments,
Dr. Honjo used cells derived from a PD-1 knockout

44a
mouse as a control, which allowed him to attribute the
inhibitory effect specifically to the PD-1/PD-L1 pathway. T4-77:3-12. He reported these results to Dr.
Wood via email on December 6 and sent the underlying
data on December 11. JTX-0433.0028; JTX-0535.0001-2.
Dr. Wood responded with excitement at Dr. Honjo’s
“outstandingly good result.”
T4-79:13-80:8; JTX0433.0029. He noted that he had just run some experiments that also showed inhibition, but he called Dr.
Honjo’s data “unquestionably the most convincing.”
JTX-0433.0029.
B. Dr. Freeman and Dr. Wood File a Provisional
Patent Application in November 1999
On November 10, 1999, about two weeks after the
meeting in Cambridge, Dr. Freeman and Dr. Wood
filed a provisional patent application. T3-164:15-24;
JTX-0045.0004. The application listed only the two as
co-inventors. JTX-0045.0006. Dr. Freeman and Dr.
Wood did not tell Dr. Honjo about this application at
the meeting. T2-125:17-21; T3-166:7-11.
The application claimed methods of modulating the
immune response via activating or blocking the PD1/PD-L1 pathway. JTX-0045.117-119. It explained that
the PD-1/PD-L1 interaction inhibits an immune response.
T2-219:16-220:5; T3-205:16-206:4; JTX0045.0017. Because Dr. Freeman and Dr. Wood theorized that PD-L1, like B7-1 and B7-2, might have a second receptor, the application contained experimental
results that show stimulation of T cells in the presence
of PD-L1 and disclosed that PD-L1 could have both a
stimulatory and inhibitory effect. T3-167:11-24, 169:15170:9; JTX-0045.0114. The application included a claim
in which PD-1 signaling is inhibited to upregulate the
immune response to a tumor. JTX-0045.0118. It also

45a
listed an embodiment in which PD-L1 levels are increased in tumor cells to enhance the co-stimulatory
interaction with PD-L1’s second receptor to treat cancer. T3-168:4-169:3; JTX-0045.0084. Dr. Wood and Dr.
Freeman submitted a corresponding international application in August 2000. JTX-0073.0001. The PTO issued three patents based on this application beginning
in 2004. T3-199:16-200:5; JTX-0008; JTX-0011; JTX0015.
C. Dr. Freeman, Dr. Wood, and Dr. Honjo Draft a
Journal Article on the PD-1/PD-L1 Pathway in
March and April 2000
Dr. Freeman, Dr. Wood, and Dr. Honjo agreed to
write a journal article about the discovery of PD-L1.
T4-97:13-98:1. Dr. Wood did the majority of the writing, though he solicited data and coordinated edits from
Dr. Freeman and Dr. Honjo. T2-68:12-21; T3-92:2293:1; T4-108:3-7. The article explained Dr. Honjo’s discovery of PD-1, the need to find its ligand to further
understand its function, Dr. Wood’s hypothesis about
the similarities between PD-L1 and the known B7 ligands, Dr. Freeman’s discovery of 292 via a BLAST
search, and the results of experiments from Dr. Wood’s
and Dr. Honjo’s laboratories showing that the PD1/PD-L1 pathway inhibits the immune response. T269:8-22, 192:20-193:11; JTX-0305. All three scientists
contributed data to the article. T3-94:25-96:9. The authors noted Dr. Chen’s seemingly inconsistent results
and explained their hypothesis that PD-L1 could have a
second receptor. JTX-0305.0007.
Over two rounds of edits on March 19 and April 7,
2000, Dr. Freeman added the following two sentences
to the last paragraph of the article: “PD-L1 is also expressed in some cancers, as three ESTs are from hu-

46a
man ovarian tumors. This raises the possibility that
some tumors may use PD-LI to inhibit an antitumor
immune response.”
T2-69:23-70:12; T3-91:18-92:14,
100:20-102:22; T4-99:17-100:5; JTX-0305.0007; JTX0806.0014; JTX-0807.0014. Dr. Honjo did not receive a
draft of the article containing Dr. Freeman’s addition
until April 8. T4-107:20-110:22; JTX-0420.0014; JTX0568.0008, 11; JTX-0589.0014. The article was published in the Journal of Experimental Medicine on October 2, 2000. T2-68:4-11; JTX-0305.0001.
D. Dr. Freeman Conducts Immunohistochemistry (“IHC”) Experiments in the Winter of
2000
In January 2000, Dr. Freeman began IHC experiments to determine which human tissues express PDL1. T2-83:5-84:6; T3-112:11-13; T6-10:4-11. He conducted this work with Dr. David Dorfman, a
pathologist at the Brigham and Women’s Hospital, and
Dr. Julia Brown, a new postdoctoral researcher in his
own laboratory. T3-111:20-112:2; T6-8:8-10, 10:18-11:1.
Dr. Freeman asked Dr. Dorfman to test both normal
and tumor tissues, but he was particularly interested to
know whether PD-L1 was expressed in tumors given
the pathway’s inhibitory function and his discovery of
PD-L1 from ovarian tumor ESTs. T2-83:5-6; T3-112:310, 112:25-113:5; T6-11:2-7.
Dr. Dorfman shared preliminary results with Dr.
Freeman in February and final results in March and
April. T3-114:7-12; T6-12:10-12. He found that PD-L1
was highly expressed in placenta and endothelial cells
in the heart and on various tumors, including squamous
cell carcinoma of the tongue, breast lobular carcinoma,
lung and colon adenocarcinoma, and anaplastic large
cell lymphoma. T3-113:9-21, 114:13-119:25; JTX-0808-

47a
0813. Based on these results and other experiments
Dr. Freeman and Dr. Brown conducted between December 1999 and August 2000 that showed PD-L1 expression on mouse and human tumor cells, Dr. Freeman
hypothesized that some tumors use the PD-1/PD-L1
pathway to inhibit an immune response. T3-108:5110:1, 113:22-114:3; T6-11:21-12:24, 34:14-35:20; JTX0332.0003. Dr. Freeman, Dr. Dorfman, and Dr. Brown
did not publish the IHC results until 2003. T3-120:1-11;
T6-13:3-12; JTX-0282.0008.
On March 14, 2000, Dr. Dorfman emailed Dr. Honjo
explaining that he was working with Dr. Freeman to
study staining of PD-L1 in both normal and cancerous
human tissue. T5-10:4-22; JTX-0571.0001. He asked
whether Dr. Honjo was interested in collaborating to
study PD-1 expression in tumors. JTX-0571.0001.
There is no evidence Dr. Honjo responded to Dr. Dorfman’s email.
E. Dr. Freeman Discovers PD-L2 in the Fall of
1999
Soon after Dr. Wood discovered that 292 binds to
PD-1, Dr. Freeman conducted a second BLAST search
for molecules similar to 292. T3-102:24-103:15; T4-89:715; JTX-0332.0002. He identified another B7-like molecule that shares 38% of its amino acids with PD-L1. T275:10-15; T3-102:24-103:7; JTX-0332.0002. Dr. Freeman
and Dr. Wood discovered that, like PD-L1, this molecule binds to PD-1 and its interaction with PD-1 inhibits the immune response. T2-75:10-15; T3-103:16-104:8.
Between December 1999 and August 2000, Dr. Freeman ran a number of experiments showing that this
ligand, which they called “PD-L2,” was expressed on
mouse tumor cells. T3-108:5-109:17; JTX-0332.0003.

48a
On March 24, 2000, Dr. Freeman emailed Dr. Honjo
to tell him about PD-L2. T3-104:25-105:13; JTX0578.0001. A month and a half later, Dr. Freeman sent
the PD-L2 cDNA and its sequence to Dr. Honjo. T3106:3-22; Honjo Depo. 129:15-130:8; JTX-0599.0001. Dr.
Honjo never himself conducted any experiments involving PD-L2. T2-75:16-19; T3-105:23-25; T4-117:2223.
F. Dr. Freeman, Dr. Wood, and Dr. Minato Independently Develop Antibodies Throughout
1999 and 2000
Dr. Freeman, Dr. Wood, and Dr. Minato all separately worked to develop antibodies. Dr. Freeman began just before the October 1999 meeting, and he had a
set of anti-PD-L1 antibody candidates by January 2000.
T3-87:8-16; T6-9:7-10. Dr. Freeman and Dr. Brown
tested how well these candidates bound to PD-L1 and
blocked the PD-1/PD-L1 pathway to figure out which
antibodies had the most promise for further research.
T3-87:17-91:11; T6-9:11-23; JTX-0227.0525-526, 536.
They had functional antibodies to use for in vitro experiments by February 2000. T6-9:24-10:3.
Dr. Wood developed anti-PD-1 and anti-PD-L1 antibodies through GI’s collaboration with CAT. T2-78:818, 91:9-23. Through in vitro testing, they narrowed
the pool of almost 150 antibody fragments to 26 unique
PD-1 antibodies and 24 unique PD-L1 antibodies. T278:8-18, 91:9-94:3; JTX-0108.0026-32. Additional testing
demonstrated that some of these antibodies blocked the
inhibitory PD-1/PD-L1 interaction and increased the
proliferation of T cells. T2-94:6-97:25; JTX-0108.0046.
As soon as Dr. Honjo received Dr. Freeman’s PDL1 cDNA in late 1999, Dr. Minato started to make anti-

49a
PD-L1 antibodies. T6-100:6-17, 101:4-8. By April 2000,
he created two mouse anti-PD-L1 antibodies. T6102:13-22, 103:15-16, 136:25-137:6. He used these antibodies to test for expression of PD-L1 in normal and
tumor cell lines in mice. T6-102:4-12, 105:3-9; JTX0663.0001. The results, presented at his laboratory
meeting on September 29, 2000, showed that PD-L1
was expressed on some of the tested cell lines. T6102:1-3, 105:3-9, 138:12-139:4; JTX-0663.0001.
G. Dr. Honjo and Dr. Wood’s Meeting in March
2000
On March 27, 2000, Dr. Honjo and Dr. Wood met
again at the next SST collaboration meeting in Kyoto,
Japan. T2-71:2-25; JTX-0101.0001. Dr. Freeman did
not attend this meeting. T2-79:2-9. The attendees discussed the PD-1/PD-L1 collaboration for much of the
meeting.
Shibayama Depo. 141:21-142:15; JTX0105.0003. Dr. Taku Okazaki, a graduate student in Dr.
Honjo’s laboratory, presented his work on PD-1 and
autoimmune diseases. T4-94:21-95:24; JTX-0103.0015;
JTX-0105.0003-4. Dr. Wood shared his and Dr. Freeman’s discovery of PD-L2. T2-74:19-75:6. Dr. Wood
also discussed the therapeutic possibilities of the PD1/PD-L1 pathway, including using antagonistic antiPD-1 antibodies to block the pathway and enhance the
immune response. T2-75:20-76:9; T4-96:13-21; JTX0782.0019. He specifically described the possibility of
using this technique to treat cancer. T2-76:10-12, 185:713, 186:25-187:6; JTX-0105.0004. As part of this discussion, he mentioned his collaboration with CAT to develop antibodies. T2-78:8-18; JTX-0105.0004. The participants in the meeting agreed that there were promising
pharmaceutical applications for anti-PD-1 and anti-PD-

50a
L1 antibodies.
0105.0003.

Shibayama Depo. 142:17-22; JTX-

H. Dr. Iwai Begins In Vivo Tumor Model Studies
in March 2000
Upon her return to Dr. Honjo’s laboratory after
her leave of absence in early 2000, Dr. Iwai resumed
her work on PD-1. Iwai Depo. 83:05-20; JTX-0429.0027.
By March 16, 2000, two days after Dr. Dorfman emailed
Dr. Honjo about his work with Dr. Freeman, she began
a series of experiments to study the effect of the PD1/PD-L1 pathway on the immune response to tumors.
T4-92:17-94:4; JTX-0573.0001, 3. She planned to introduce PD-L1 derived from Dr. Freeman’s cDNA into
mouse tumors to see whether PD-L1 had any effect on
the tumor’s growth. T4-90:14-91:1; T5-23:11-14; JTX0125.0032. She presented her plan at the March 31,
2000 laboratory meeting. T4-90:7-17; JTX-0125.0032.
V. MAY 13, 2000 COLLABORATION MEETING IN SEATTLE
Dr. Freeman, Dr. Wood, and Dr. Honjo all attended
the American Association of Immunologists (“AAI”)
conference in Seattle, Washington in May 2000, so they
decided to meet to update each other about their ongoing PD-L1/PD-L1 work. T2-84:12-18, 85:2-4; T3-106:316, 120:18-25, 121:19-122:6; Carreno Depo. 189:16-190:9.
Dr. Freeman explained his IHC results showing expression of PD-L1 on a number of normal and tumor
cells. T2-84:7-11, 19-23; T3-125:8-25; JTX-0815.0006.
He also shared information about PD-L2. T3-123:17-22.
Finally, he discussed his development of anti-PD-L1
antibodies and mentioned that he had seven that
blocked the binding of PD-1 and PD-L1. T3-91:12-17,
124:21-125:3; JTX-0815.0004. The three scientists discussed the therapeutic possibilities of using antibodies

51a
to target the PD-1/PD-L1 pathway to treat cancer. T3126:6-127:1.
VI. DEVELOPMENTS DURING THE SUMMER OF 2000
In June 2000, Dr. Honjo found out about the provisional patent application Dr. Freeman and Dr. Wood
filed in November 1999. T4-183:2-11, 183:22-184:9; JTX0616.0001; JTX-0617.0001. Dr. Honjo wrote to both Dr.
Wood and Dr. Clark at GI to explain that he should be a
joint inventor on the application because he proposed
the PD-L1 project based on his prior work on PD-1.
T4-183:22-184:9, 190:17-191:2; JTX-0616.0001; JTX0617.0001. In his email to Dr. Clark, he also noted that
he was “very pleased with [the] recent productive collaboration on PD-1 and PD-L1” and felt that it was
“coming close to drug development.” JTX-0617.0001.
GI hired a lawyer to represent Dr. Honjo, and GI and
Dr. Honjo began two years of discussions about his inventorship claim. T2-124:7-14; T4-123:16-24, 124:16-17,
188:4-8, 189:3-8, 190:2-16; JTX-0727.0001; JTX0820.0001. As discussed below, GI ultimately decided
not to add Dr. Honjo as a joint inventor on the patent
application. Dr. Honjo never discussed this issue with
Dr. Freeman. T4-188:9-15.
On August 23, Dr. Freeman emailed Dr. Honjo
seeking feedback on an abstract about PD-L1 for the
American Society of Hematology meeting in December.
T3-127:23-128:6; T5-25:18-26:4; JTX-0647.0001. In the
draft, Dr. Freeman wrote that “PD-L1 is also expressed on some tumors including many lung and
breast malignancies and may have a role in attenuating
immune attack against these tumors.” T3-128:7-12; T526:9-24; JTX-0647.0001. Dr. Honjo approved the abstract. T3-128:21-129:2; JTX-0648.0001.

52a
On September 1, Dr. Iwai reported results from
her first tumor model experiment at a Honjo laboratory
meeting. JTX-0626.0003. In this experiment, she injected PD-L1-expressing melanoma tumors into some
mice and non-PD-L1-expressing melanoma tumors into
others. Id. The PD-L1-expressing tumors grew faster
than the non-PD-L1-expressing tumors. Id.
Dr. Freeman sent Dr. Honjo a draft of the article
he and Dr. Wood were writing on PD-L2 on September 6. T3-107:14-19; JTX-0656.0001. This article, which
included Dr. Honjo as a co-author, was published in
March 2001 and discussed the possibility of targeting
the PD-1/PD-L1 pathway as method of treating cancer.
T3-110:2-23; JTX-0332.0001, 6. The article also included
experimental data from Dr. Freeman’s laboratory
showing PD-L1 expression in a number of mouse tumor
cell lines, including sarcoma, neuroma, and leukemia
lines. T3-108:8-109:13, 135:11-18; JTX-0332.0003.
VII. SEPTEMBER 8, 2000 COLLABORATION MEETING
CAMBRIDGE

IN

On September 8, 2000, Dr. Freeman, Dr. Wood, and
Dr. Honjo met again during the next SST collaboration
meeting in Cambridge, Massachusetts. T2-85:5-15; T3129:3-7; JTX-0108.0001-2; JTX-0111.0003. The main
topic of the meeting was the PD-1/PD-L1 project.
JTX-0111.0003. The meeting began with presentations
from a number of GI scientists who worked with Dr.
Wood. T3-130:7-12; JTX-0108.0002. They presented
data showing that the PD-1/PD-L1 pathway inhibits
both helper and killer T cells and that both PD-L1 and
PD-L2 inhibit cytokine production. T2-86:23-87:25,
88:19-89:9; JTX-0108.0004, 7, 17. They also explained
the results of an in vivo mouse study showing that the
presence of antagonistic antibodies to block the inhibi-

53a
tory PD-1/PD-L1 interaction leads to the proliferation
of T cells. T2-94:6-97:25; JTX-0108.0046
Dr. Freeman presented the same slides he used at
the May 2000 meeting in Seattle. T3-129:13-130:6. He
shared information on gene structures of PD-L1 and
PD-L2. T2-98:17-20. He reported that he had found
PD-L2 expression on dendritic cells, suggesting that it
plays a role in immune inhibition. T2-98:21-99:9; JTX0113.0001. Finally, he showed the IHC staining slides
he received from Dr. Dorfman showing expression of
PD-L1 on certain normal and tumor tissues. T2-99:1020; T3-126:1-3, 132:23-133:15; T4-113:2-21; JTX0100.0108-109; JTX-0113.0001. Dr. Freeman explained
that he found PD-L1 expressed on all thymomas, some
lung carcinomas, some tongue squamous cell carcinomas, and some T cell neoplasms, primarily anaplastic
large cell lymphoma. T2-101:12-103:1; JTX-0100.0108109; JTX-0113.0002.
Dr. Honjo was not scheduled to speak, but he
shared an update after one of his graduate students
gave a presentation. T2-103:5-11; JTX-0108.0002; JTX0113.0002. As part of his update, Dr. Honjo presented
the data from Dr. Iwai’s tumor model experiment that
she had generated a week earlier. T2-103:11-15, 104:623; T4-114:18-115:17; JTX-0116.0004.
VIII.

DR. HONJO AND DR. IWAI CONDUCT IN VIVO
MOUSE TUMOR MODEL EXPERIMENTS AND THE
COLLABORATION ENDS

On September 26, 2000, Dr. Honjo emailed Dr.
Freeman to ask for his human anti-PD-L1 monoclonal
antibodies for use in his experiments. JTX-0661.0001.
He added that, “Needless to say, we will do [the experiments] as collaboration.” Id. As requested, Dr. Free-

54a
man sent Dr. Honjo some of his antibodies pursuant to
a new Material Transfer Agreement. Honjo Depo.
181:23-183:11; JTX-0170.0001. Dr. Wood also provided
Dr. Honjo with his own human anti-PD-L1 antibodies
in October 2000. Honjo Depo. 445:15-446:4; JTX0637.0013.
On October 27, 2000, Dr. Iwai reported the results
of additional mouse tumor model experiments at another laboratory meeting in Japan. T4-115:18-116:20; JTX0662.0003. The experiments confirmed the results she
presented in September that PD-L1-expressing melanoma tumors grew faster in mice than non-PD-L1expressing melanoma tumors. JTX-0662.0003. She also
showed that PD-L1-expressing tumors grew less quickly in PD-1 knockout mice than in mice that expressed
PD-1. T4-116:14-20; JTX-0662.0003. These results indicated to Dr. Iwai and Dr. Honjo that blocking PD-1
can suppress tumor growth. T4-116:21-24. Dr. Honjo,
Dr. Minato, and Dr. Iwai began discussing using antibodies to block the PD-1/PD-L1 pathway as a method
of treating cancer. T4-116:25-117:4, 118:13-18; T6-107:712; Honjo Depo. 29:8-30:6; JTX-0662.0003. Defendants
take the position that they conceived of the inventions
in the Honjo patents at this point in October 2000.
Building off Dr. Iwai’s results, Dr. Honjo and Dr.
Minato conducted other experiments over the next two
years to study the effect of the PD-1/PD-L1 pathway
on tumors. Dr. Minato’s laboratory examined the expression of PD-L1 on tumor and normal cells and how
PD-L1 interacts with PD-1 on T cells. T6-110:13-15.
Dr. Honjo’s laboratory used knockout mice to investigate further how tumors grow in the presence or absence of PD-1 and PD-L1. T6-110:10-13; Iwai Depo.
92:24-94:3; JTX-0691.0001. Dr. Honjo also conducted
experiments that showed less tumor growth after ad-

55a
ministration of anti-PD-1 antibodies.
Iwai Depo.
144:24-145:12; JTX-0739.0005. The results of these experiments were not shared with Dr. Freeman and Dr.
Wood.
Dr. Wood, Dr. Honjo, and others from Ono and GI
discussed the PD-1/PD-L1 pathway one last time at an
SST collaboration meeting on April 2, 2001. JTX0118.0001. Dr. Beatriz Carreno from GI talked specifically about upregulating T cells to treat tumors. T2110:2-11; JTX-0119.0001. Because there is no evidence
of additional meetings, data sharing, or the like after
this date, it appears the collaboration effectively ended.
IX. DR. HONJO
JULY 2002

AND

ONO FILE PATENT APPLICATION

IN

Meanwhile, attorneys for GI and Dr. Honjo were
still discussing Dr. Honjo’s inventorship claim for the
November 1999 patent application. On April 12, 2002,
Dr. Honjo sent a letter to Dr. Clark at GI expressing
his belief that GI was not responding to his claim “faithfully.” JTX-0820.0001. He told Dr. Clark that he felt
“obliged to fight against [the] unfair and unfaithful attitude of the G.I. management.” Id. Four days later, an
attorney for GI wrote to Dr. Honjo’s attorney explaining why GI would not list Dr. Honjo as a joint inventor.
JTX-0727.0001. He stated that GI intended to allow the
PTO examiner to make the final inventorship determination and encouraged Dr. Honjo to participate in the
process. JTX-0727.0001-2.
In the wake of this angry exchange, Dr. Honjo and
Ono filed their own Japanese patent application on July
3, 2002 claiming methods of treating cancer by blocking
the PD-1/PD-L1 pathway. T4-119:5-13; JTX-0076.0001.
The application contained the results of the experi-

56a
ments Dr. Honjo, Dr. Iwai, and Dr. Minato conducted
beginning in 2000. T4-119:14-17. It named only the
three as inventors, thereby excluding Dr. Freeman and
Dr. Wood. T4-119:5-13; JTX-0076.0001. Dr. Honjo, Dr.
Iwai, and Dr. Minato subsequently published the results of their in vivo tumor model experiments on September 17, 2002 in PNAS.
T4-119:18-24; JTX0322.0001.
A year later, Dr. Honjo and Ono filed an international patent application claiming methods of treating
cancer by administering antibodies to block the PD1/PD-L1 pathway. JTX-0001.0002. In addition to Dr.
Honjo, Dr. Minato, and Dr. Iwai, this application named
Dr. Shiro Shibayama, an Ono scientist, as an inventor.
T4-120:25-121:2; JTX-0001.0002. Dr. Shibayama attended collaboration meetings in 1999 and 2000. JTX0090.0001; JTX-0108.0002. He also conducted one in
vitro experiment in February 2003, the results of which
were included in the patent application. T4-121:3-8; T517:23-18:13; Shibayama Depo. 13:7-18, 30:25-31:2, 46:2247:3; JTX-0001.0019.
The PTO issued six patents from 2009 to 2016: Patent No. 7,595,048 on September 29, 2009 (“the ’048 Patent”); Patent No. 8,168,179 on May 1, 2012 (“the ’179
Patent”); Patent No. 8,728,474 on May 20, 2014 (“the
’474 Patent”); Patent No. 9,067,999 on June 30, 2015
(“the ’999 Patent”); Patent No. 9,073,994 on July 7, 2015
(“the ’994 Patent”); and Patent No. 9,402,899 on August
2, 2016 (“the ’899 Patent”). JTX-0001.0002; JTX0002.0002; JTX-0003.0002; JTX-0004.0002; JTX0005.0002; JTX-0006.0001. The six Honjo patents list

57a
Dr. Honjo, Dr. Minato, Dr. Iwai, and Dr. Shibayama as
inventors.8 Id.
X. BMS DEVELOPS NIVOLUMAB WITH EXCLUSIVE LICENSE
TO THE HONJO PATENTS
In the mid-2000s, Medarex, an American biotechnology company, negotiated with Ono to secure an exclusive license to the Honjo patents. T6-43:12-15, 44:2145:1. Medarex began clinical trials on nivolumab, an
anti-PD-1 monoclonal antibody, as a treatment for cancer in 2006. T6-40:25-41:6, 43:6-15, 47:10-15. On July 22,
2009, BMS acquired Medarex along with its drug pipeline and exclusive license to the Honjo patents. T640:2-5, 44:8-13, 68:21-24. At the time of the acquisition,
nivolumab was in the first of three phases of clinical
trials. T6-46:8-47:9.
Since the acquisition, BMS has run approximately
150 clinic trials for nivolumab, including some at DanaFarber. T6-48:11-49:2. BMS is still conducting trials
for new indications and began new trials after this lawsuit was initiated. T6-49:21-50:10, 72:19-73:12. Beginning in 2008, Medarex and BMS published studies with
the results of the trials. T6-54:2-60:4; JTX-0281; JTX0825-826. BMS spent around $3 billion in research and
development for nivolumab between 2011 and 2018.
T6-51:7-17.
Nivolumab was first approved in Japan in July 2014
and then in the United States that December. T6-49:312. The U.S. Food and Drug Administration initially
approved it for late-stage pretreated patients with
8

Dr. Wood and GI filed a patent application in 2003 claiming
the specific anti-PD-1 antibodies they had developed. T2-203:18217:2; JTX-0061.0002, 41.

58a
melanoma and has now extended its approval for fifteen indications covering more than nine different cancers. T6-49:13-20. BMS launched nivolumab commercially in January 2015 under the name “Opdivo.” T640:17-21, 71:13-17. BMS earned revenues on sales of
nivolumab of $4.9 billion and $6.7 billion in 2017 and
2018, respectively. T6-52:6-8, 72:2-4.
Despite BMS’s exclusive rights to the Honjo patents, other pharmaceutical companies have developed
their own anti-PD-1 and anti-PD-L1 antibodies, including Merck, Regeneron, Novartis, Tesaro, Roche Genentech, and AstraZeneca. T6-60:24-61:5, 62:17-22. BMS
filed patent infringement lawsuits against these companies but has not sought to take their products off the
market. T6-61:20-63:10.
XI. DANA-FARBER INITIATES THIS LAWSUIT
Dr. Freeman learned about the ’048 Patent in 2010.
T3-195:17-23. He did not realize the patent used his
discoveries until sometime between 2012 and 2014. T3197:5-19. He did not sue then because he did not know
an inventor could bring a lawsuit to be added to a patent. T3-198:11-14. Dr. Wood did not focus on the Honjo patents until Dana-Farber filed its lawsuit, although
he admitted he might have known about them earlier.
T2-127:12-24. Neither Dr. Freeman nor Dr. Wood
talked to Dr. Honjo about inventorship of the Honjo
patents. T2-126:17-127:2; T3-197:20-25. Dana-Farber
became aware of the ’048 and ’179 Patents in September 2014 after the initiation of patent infringement litigation between BMS and Merck. Hodges Depo. 54:1355:04, 58:5-17. Dana-Farber learned about the other
Honjo patents shortly after they issued between 2014
and 2016. Hodges Depo. 55:18-23, 60:2-14, 62:12-17.

59a
In March 2015, in connection with his consulting
work, Dr. Freeman told Novartis, a Swiss pharmaceutical company, about his collaboration with Dr. Honjo
and Dr. Wood on the PD-1/PD-L1 pathway. T3-201:7202:19; Hodges Depo. 99:6-13, 101:1-10. Novartis was
interested in Dr. Freeman’s collaboration and his potential inventorship claim because it was developing
anti-PD-1 antibodies and anticipated being sued by
BMS for patent infringement. Hodges Depo. 120:2-13,
122:20-123:15. Novartis thought that if it entered into
an agreement to license whatever rights Dana-Farber
might have to the Honjo patents and then brought suit
with Dana-Farber to correct inventorship, it could participate in any settlement BMS might strike with the
other companies developing antibodies targeting the
PD-1/PD-L1 pathway. Id. Realizing that Dr. Freeman
might have a claim to be added as an inventor on the
Honjo patents, Novartis began to gather more information from him about the collaboration. Hodges
Depo. 90:6-21; JTX-0829.0001.
On June 6, 2015, Novartis and Dr. Freeman
reached out to Dana-Farber to discuss his inventorship
claim. Hodges Depo. 97:18-98:3, 99:14-21, 100:6-11. Until these discussions began, Dana-Farber did not know
the extent of Dr. Freeman’s collaboration with Dr.
Honjo. Hodges Depo. 113:12-114:2. Dana-Farber, Novartis, and Dr. Freeman discussed bringing an inventorship claim. Hodges Depo. 145:11-146:6. Ultimately,
Dana-Farber decided to proceed without an agreement
with Novartis because of its policy of not granting exclusive licenses, which Novartis was seeking if Dr.
Freeman were added to the patents. Hodges Depo.
119:11-22, 145:11-146:6. Dana-Farber filed this lawsuit
on its own on September 25, 2015.

60a
XII.

DR. HONJO WINS THE NOBEL PRIZE

In 2018, Dr. Honjo was awarded the Nobel Prize in
Physiology or Medicine for his work on treating cancer
via suppression of negative immune regulation. T413:1-11. During his Nobel lecture in Sweden, he presented a slideshow listing “[m]ajor outside collaborators” with whom he had worked. JTX-0828.0002. Under “Cancer immunotherapy by PD-1 blockade,” Dr.
Honjo listed four names. Id. Three were colleagues at
Kyoto University, including Dr. Minato. Id. The fourth
was Dr. Freeman. Id.
EXPERT OPINIONS
Both sides offered an expert to give an opinion on
whether the contributions Dr. Freeman and Dr. Wood
allegedly made to conception of the Honjo patents were
significant.
I.

DANA-FARBER’S EXPERT: DR. KENNETH MURPHY

Dr. Kenneth Murphy, Dana-Farber’s expert, is a
professor of pathology and immunology at Washington
University in St. Louis. T5-29:14-22. He received a
medical degree and PhD in neuroscience from Johns
Hopkins University and completed an anatomic pathology residency at Washington University in St. Louis.
T5-30:1-10. For the past ten years, his research has focused on the biology, function, and development of dendritic cells, including the use of dendritic cells in antitumor immune responses. T5-30:14-31:6. He is the first
author of a leading immunology textbook. T5-31:1532:3.
In determining whether Dr. Freeman’s and Dr.
Wood’s contributions were significant, he applied a “deletion test” that asked whether the invention would

61a
have been possible if Dr. Freeman and/or Dr. Wood had
not made a given contribution. T5-51:15-22. This test,
essentially but-for causation, does not accurately reflect
the joint inventorship standard, which will be discussed
below. See Yeda Research & Dev. Co. v. Imclone Sys.,
Inc., 443 F. Supp. 2d 570, 621 (S.D.N.Y. 2006). Nevertheless, I credit much of Dr. Murphy’s opinion as to the
scientific significance of Dr. Freeman’s and Dr. Wood’s
contributions.
Dr. Murphy opined that Dr. Freeman and Dr.
Wood are joint inventors of all six patents because they
made eight significant contributions (which the parties
refer to as “pillars”) to conception of the patents. T534:20-35:7, 38:3-5. First, Dr. Murphy explained that Dr.
Freeman discovered and characterized 292 through a
BLAST search and in vitro experiments. T5-38:5-6,
41:15-18, 48:16-49:5. This contribution was significant
because PD-L1, as 292 is now known, is an essential element of all of the claims that involve the administration of an anti-PD-L1 antibody or administration of an
anti-PD-1 antibody to a tumor that expresses PD-L1.
T5-39:16-40:16. Dr. Freeman’s discovery of 292 through
ovarian tumor ESTs also piqued his interest in 292 and
its relationship to cancer because other B7 ligands are
only found on immune cells. T5-42:25-43:22.
Second, Dr. Freeman and Dr. Wood jointly discovered that PD-L1 is a ligand for PD-1. T5-38:7-8. This
discovery was significant because the Honjo patents
rely on blocking the interaction between PD-1 and its
ligand. T5-54:4-15. Developing a successful method of
blocking the PD-1/PD-L1 interaction requires
knowledge of the structure of PD-L1. T5-61:18-24.
Third, Dr. Murphy opined that Dr. Freeman and
Dr. Wood discovered that the binding of PD-1 by PD-

62a
L1 inhibits T cell activation through in vitro experiments they shared with Dr. Honjo at the October 1999
meeting. T5-38:9-10, 79:2-10. Knowing that the PD1/PD-L1 pathway is inhibitory was essential to understanding that antibodies that block the pathway could
stimulate an immune response to treat cancer. T578:10-79:1.
Fourth, in his view, Dr. Freeman contributed the
idea of treating cancer by blocking the PD-1/PD-L1
pathway through his edits to one of the articles he coauthored with Dr. Wood and Dr. Honjo. T5-38:11-13,
80:24-81:16. Before his suggestion, Dr. Honjo’s work on
PD-1 was focused on autoimmunity. T5-82:13-83:3.
This idea was highly significant because the patents
claim variants of the method Dr. Freeman proposed.
T5-81:17-24.
Fifth, Dr. Murphy explained that Dr. Freeman
provided PD-L1 reagents that Dr. Iwai used in her in
vivo mouse tumor model experiments. T5-38:14-17.
Without these reagents, Dr. Iwai would not have been
able to conduct these critical experiments. T5-83:484:2.
Sixth, through his IHC work with Dr. Dorfman, Dr.
Freeman discovered that human PD-L1 is expressed
by a variety of different primary human solid tumors.
T5-38:18-20, 92:17-93:18.
Dr. Iwai’s experiments
demonstrated that mice tumors expressing PD-L1 inhibited an antitumor immune response, but these results only suggest a method of treating cancer in humans if human tumors also express PD-L1. T5-89:1990:7. The expression of PD-L1 is also an essential element of claims that recite a method treating tumors
that express or overexpress PD-L1. T5-90:13-22. And
certain dependent claims refer specifically to the types

63a
of tumors that Dr. Freeman discovered express PD-L1
in his IHC experiments. T5-98:12-99:9.
Seventh, Dr. Freeman and Dr. Wood discovered
and characterized PD-L2 as a second ligand for PD-1.
T5-38:21-22. Many of the claims in the Honjo patents
refer to tumors that express PD-L2, and Dr. Honjo and
the other named inventors did no experimental work
themselves on PD-L2. T5-100:21-101:16.
Eighth and finally, Dr. Murphy opined that Dr.
Freeman and Dr. Wood developed human antibodies
that blocked the interaction between PD-1 and PD-L1.
T5-38:23-25. Since some antibodies fail to block the receptor-ligand interaction they are meant to target, it
was significant to Dr. Honjo’s conception of the inventions to know that antibodies can in fact block the PD1/PD-L1 pathway. T5-101:17-103:6.
II. DEFENDANTS’ EXPERT: DR. MARK GREENE
Dr. Mark Greene, Defendants’ expert, is a professor of medical science at the University of Pennsylvania. T6-157:22-25. His research focuses on tumor immunology and receptor biology. T6-158:12-15. He received a medical degree and PhD in tumor immunology
from the University of Manitoba and practices as an
internist specializing in oncology. T6-158:20-160:5.
Like Samson, Dr. Greene tries to pull down all the
pillars supporting the claim of joint inventorship. He
emphasized the importance of conducting in vivo experiments to understand the impact of a receptor-ligand
interaction because in vitro experiments do not reflect
the full complexity of all of the interactions in a living
organism. T6-164:11-165:9, 166:18-167:3. Given the
large number of receptor-ligand interactions that regulate the immune system, he stressed that a scientist

64a
must study the structure and function of a specific interaction to know if it is a useful target for medical
treatment. T6-175:16-25. Accordingly, he opined that
none of Dr. Freeman’s and Dr. Wood’s eight purported
contributions to conception of the inventions in the
Honjo patents was significant, either alone or in combination, because Dr. Freeman and Dr. Wood lacked a
fundamental understanding of the function of the PD1/PD-L1 pathway in the immune system. T6-185:21186:4; T7-43:2-12.
As to the three first alleged contributions, Dr.
Greene explained that when Dr. Freeman discovered
292, he did not know its function. T6-194:21-195:1. Because many cells make short DNA fragments that are
not ultimately expressed as proteins, the fact that the
292 ESTs came from ovarian tumors could not tell Dr.
Freeman that 292 has a functional effect in cancer. T6195:2-24. Dr. Freeman’s subsequent discovery that 292
did not bind to CD28 or CTLA-4 contributed little to
his understanding of 292’s function because of the myriad of other receptors to which 292 could bind. T6197:15-198:4. Dr. Wood’s initial experiments showing
binding of 292 to PD-1 demonstrated a weak interaction
and did not reveal anything about the pathway’s function. T6-200:5-201:14. Dr. Greene explained that Dr.
Freeman and Dr. Wood’s inclusion of an example in
their November 1999 provisional patent application
showing stimulation from PD-L1 underscores that they
did not truly understand PD-L1’s inhibitory effect. T6202:4-203:18. Dr. Wood also expressed confusion about
Dr. Chen’s published results showing stimulation. T76:5-8:13. Instead, Dr. Honjo was the one who definitively showed that the interaction between PD-1 and
PD-L1 is inhibitory through his controlled experiment
in December 1999. T7-8:14-9:23, 13:2-23.

65a
For the fourth pillar, Dr. Greene explained that Dr.
Freeman’s suggestion of treating cancer by blocking
the PD-1/PD-L1 pathway at the October 1999 meeting
was pure speculation without evidence to support that
it would work. T7-19:7-19. Dr. Freeman’s addition of
two sentences to one of the papers the three scientists
co-authored about the possibility that tumors use PDL1 to inhibit an antitumor immune response was also
purely speculative. T7-22:1-11. In addition, Dr. Honjo
and Dr. Iwai started to work on in vivo tumor model
experiments before receiving a draft of the article with
Dr. Freeman’s addition. T7-22:12-23:17. Dr. Freeman’s
provision of reagents to Dr. Honjo (the fifth alleged
contribution) was not significant because he merely
provided material to use in an experiment without explaining its function. T7-27:14-21.
Dr. Greene downplayed the sixth purported contribution, Dr. Freeman’s IHC results showing expression
of PD-L1 on human tumors, because an IHC experiment does not indicate anything about the functional
role of the molecule. T7-32:1-33:12. In fact, the results
would have discouraged a scientist from targeting the
PD-1/PD-L1 pathway to treat cancer because they
showed expression of PD-L1 on normal cells as well.
T7-33:13-19. Dr. Freeman and Dr. Wood’s discovery
and characterization of PD-L2 (the seventh alleged contribution) was not significant because another scientist
had already discovered PD-L2’s sequence and the Honjo patents claim use of only anti-PD-1 and anti-PD-L1
antibodies. T7-34:24-35:9, 40:6-8.
As to the eighth contribution, Dr. Freeman and Dr.
Wood did not make a significant contribution through
their development of blocking antibodies, as use of antibodies to block receptor-ligand interactions was state

66a
of the art at the time and Dr. Honjo had already developed his own anti-PD-1 antibodies. T7-40:14-41:23.
CONCLUSIONS OF LAW
I.

JOINT INVENTORSHIP
A. Legal Standard

“[W]henever … through error an inventor is not
named in an issued patent, the [PTO] may, on application of all parties and assignees, with proof of the facts
and such other requirements as may be imposed, issue
a certificate correcting such error.” 35 U.S.C. § 256(a).
A putative joint inventor “who was not listed as an inventor on the patent may bring a cause of action to correct inventorship in a district court.” Vapor Point LLC
v. Moorhead, 832 F.3d 1343, 1348 (Fed. Cir. 2016) (per
curiam) (quoting Eli Lilly & Co. v. Aradigm Corp., 376
F.3d 1352, 1356 n.1 (Fed. Cir. 2004)). A court “may order correction of the patent on notice and hearing of all
parties concerned.” 35 U.S.C. § 256(b).
35 U.S.C. § 116(a) establishes the standard for joint
inventorship:
When an invention is made by two or more
persons jointly, they shall apply for patent
jointly and each make the required oath, except
as otherwise provided in this title. Inventors
may apply for a patent jointly even though (1)
they did not physically work together or at the
same time, (2) each did not make the same type
or amount of contribution, or (3) each did not
make a contribution to the subject matter of
every claim of the patent.

67a
This standard “is one of the muddiest concepts in the
muddy metaphysics of patent law.” In re VerHoef, 888
F.3d 1362, 1365 (Fed. Cir. 2018) (quoting Mueller Brass
Co. v. Reading Indus., Inc., 352 F. Supp. 1357, 1372
(E.D. Pa. 1972)).
An individual qualifies as “a joint inventor only if
he contributes to the conception of the claimed invention.” Eli Lilly, 376 F.3d at 1359. Conception “requires
a ‘definite and permanent idea of an operative invention, including every feature of the subject matter
sought to be patented.’” In re VerHoef, 888 F.3d at
1366 (quoting Sewall v. Walters, 21 F.3d 411, 415 (Fed.
Cir. 1994)). “An idea is definite and permanent when
the inventor has a specific, settled idea, a particular
solution to the problem at hand, not just a general goal
or research plan.” Id. (quoting Burroughs Wellcome
Co. v. Barr Labs., Inc., 40 F.3d 1223, 1228 (Fed. Cir.
1994)).
Conception is complete when “only ordinary skill
would be necessary to reduce the invention to practice,
without extensive research or experimentation.” Bd. of
Educ. ex rel. Bd. of Trs. of Fla. State Univ. v. Am. Bioscience, Inc., 333 F.3d 1330, 1338 (Fed. Cir. 2003) (quoting Ethicon, Inc. v. U.S. Surgical Corp., 135 F.3d 1456,
1460 (Fed. Cir. 1998)). As such, a “bare idea” or “general hope” of an invention is not enough for conception.
Burroughs Wellcome, 40 F.3d at 1229-30. But an inventor “need not know that his invention will work for
conception to be complete,” as long as he has a “complete mental picture of the invention.” Id. at 1228. “A
conception is not complete if the subsequent course of
experimentation, especially experimental failures, reveals uncertainty that so undermines the specificity of
the inventor’s idea that it is not yet a definite and per-

68a
manent reflection of the complete invention as it will be
used in practice.” Id. at 1229.
There is “no explicit lower limit on the quantum or
quality of inventive contribution required for a person
to qualify as a joint inventor.” Eli Lilly, 376 F.3d at
1358 (quoting Fina Oil & Chem Co. v. Ewen, 123 F.3d
1466, 1473 (Fed. Cir. 1997)). In particular, a putative
joint inventor “need not demonstrate that he made a
contribution equal in importance to the contribution
made by the listed inventors.” Id. Instead, courts ask
whether the contribution is “not insignificant in quality,
when … measured against the dimension of the full invention.” In re VerHoef, 888 F.3d at 1366 (quoting
Pannu v. Iolab Corp., 155 F.3d 1344, 1351 (Fed. Cir.
1998)). An individual who proposes the idea for what
becomes “an essential feature of the claimed invention”
has made a sufficient contribution and qualifies as a
joint inventor. Id. On the other hand, simply explaining well-known concepts or the state of the art does not
make one a joint inventor of another’s invention, see id.,
nor does suggesting “an idea of a result to be accomplished, rather than means of accomplishing it,” Nartron Corp. v. Schukra U.S.A., Inc., 558 F.3d 1352, 1359
(Fed. Cir. 2009) (quoting Garrett Corp. v. United States,
422 F.3d 874, 881 (Cl. Ct. 1970)). A joint inventor’s contribution can be purely experimental. See Fina Oil, 123
F.3d at 1473.
Collaboration is a key requirement for joint inventorship. See Falana v. Kent State Univ., 669 F.3d 1349,
1357 (Fed. Cir. 2012) (“A joint invention is the product
of a collaboration between two or more persons working together to solve the problem addressed.” (quoting
Burroughs Wellcome, 40 F.3d at 1227)). Joint inventorship arises only “when collaboration or concerted effort
occurs—that is, when the inventors have some open

69a
line of communication during or in temporal proximity
to their inventive efforts.” Eli Lilly, 376 F.3d at 1359.
Put differently, a putative “joint inventor seeking to be
listed on a patent must demonstrate that his labors
were conjoined with the efforts of the named inventors.” Id.; see also Vanderbilt Univ. v. ICOS Corp., 601
F.3d 1297, 1303 (Fed. Cir. 2010) (“The interplay between conception and collaboration requires that each
co-inventor engage with the other co-inventors to contribute to a joint conception.”). “Individuals cannot be
joint inventors if they are completely ignorant of what
each other has done until … after their individual independent efforts” or are “totally independent of each
other.” Kimberly-Clark Corp. v. Proctor & Gamble
Distrib. Co., 973 F.2d 911, 917 (Fed. Cir. 1992). On the
other hand, joint inventors need “not physically work
on the invention together or at the same time.” Falana, 669 F.3d at 1357.
Inventorship is determined on a claim-by-claim basis, and a putative co-inventor need only show that he
contributed to the conception of one claim. See Vapor
Point, 832 F.3d at 1348-49. A joint inventorship analysis proceeds in two steps. First, a court must construe
the claims “to determine the subject matter encompassed thereby.” Gemstar-TV Guide Int’l, Inc. v. Int’l
Trade Comm’n, 383 F.3d 1352, 1381-82 (Fed. Cir. 2004).
Second, a court must compare “the alleged contributions of each asserted co-inventor with the subject matter of the correctly construed claim to determine
whether the correct inventors were named.” Id. at
1382. “The determination of whether a person is a joint
inventor is fact specific, and no bright-line standard will
suffice in every case.” Fina Oil, 123 F.3d at 1473.
“Because the issuance of a patent creates a presumption that the named inventors are the true and on-

70a
ly inventors, the burden of showing … nonjoinder of
inventors is a heavy one and must be proved by clear
and convincing evidence.” Falana, 669 F.3d at 1356
(quoting Bd. of Educ., 333 F.3d at 1337). Evidence
meets the clear and convincing standard if it “place[s]
in the ultimate factfinder an abiding conviction that the
truth of its factual contentions are highly probable.”
Pfizer, Inc. v. Apotex, Inc., 480 F.3d 1348, 1359 n.5
(Fed. Cir. 2007) (alteration in original) (quoting Colorado v. New Mexico, 467 U.S. 310, 316 (1984)).
B. Claim Construction
The first step in a joint inventorship analysis is to
construe the scope of the claims at issue. See GemstarTV Guide, 383 F.3d at 1381-82. “Only by doing so is it
possible to compare the contributions of the claimed coinventor with the subject matter of the properly construed claim to determine whether the correct inventors were named.” Finkelstein v. Mardkha, 495 F.
Supp. 2d 329, 338 (S.D.N.Y. 2007). However, a court
need not hold a claim construction hearing if the parties
do not request one. See Eli Lilly, 376 F.3d at 1360. In
the absence of such a request, “the claims are given
their ordinary and customary meaning as they would
have been understood by a person of ordinary skill in
the art at the time of the invention.” Scott v. Zimmer,
Inc., 889 F. Supp. 2d 657, 663 n.2 (D. Del. 2012); see also
Stryker Corp. v. Zimmer, Inc., 837 F.3d 1268, 1272
(Fed. Cir. 2016) (“In construing a claim term, we look at
the term’s plain and ordinary meaning as understood
by a person of ordinary skill in the art.”). Neither party
requested a claim construction hearing, and both parties concede that the claims should be given their plain
and ordinary meaning.

71a
C. Corroboration
As a threshold issue, Defendants assert that DanaFarber has failed to present sufficient corroboration of
its joint inventorship claim. To meet the clear and convincing evidence standard, putative joint inventors
must provide some corroborating evidence instead of
relying solely on their own testimony. Symantec Corp.
v. Comput. Assocs. Int’l, Inc., 522 F.3d 1279, 1295 (Fed.
Cir. 2008). This requirement for corroboration “addresses the concern that a party claiming inventorship
might be tempted to describe his actions in an unjustifiably self-serving manner in order to obtain a patent.”
Chen v. Bouchard, 347 F.3d 1299, 1309 (Fed. Cir. 2003).
As such, the corroboration requirement only applies to
a putative joint inventor’s testimony; documentary evidence does not need corroboration before a court may
consider it. Price v. Symsek, 988 F.2d 1187, 1195 (Fed.
Cir. 1993).
Courts use a “rule of reason” analysis to determine
if a putative joint inventor has sufficiently corroborated
his testimony. Symantec Corp., 522 F.3d at 1295. This
analysis requires considering “all pertinent evidence”
to judge “the credibility of the inventor’s story.” Id.
(quoting Gemstar-TV Guide, 383 F.3d at 1382). “There
is no particular formula that an inventor must follow in
providing corroboration of his testimony.” Chen, 347
F.3d at 1309. “[R]ecords made contemporaneously with
the inventive process” are the most reliable corroborating evidence, but courts also consider “[c]ircumstantial
evidence of an independent nature” and “oral testimony
from someone other than the alleged inventor.” Linear
Tech. Corp. v. Impala Linear Corp., 379 F.3d 1311,
1327 (Fed. Cir. 2004). Oral testimony of one putative
joint inventor is not enough on its own to corroborate
the oral testimony of another. See TransWeb, LLC v.

72a
3M Innovative Props. Co., 812 F.3d 1295, 1302 (Fed.
Cir. 2016) (“We have generally been most skeptical of
oral testimony that is supported only by testimonial
evidence of other interested persons.” (emphasis added)). But such testimony can help to corroborate along
with other evidence.9 Adenta GmbH v. OrthoArm,
Inc., 501 F.3d 1364, 1372-73 (Fed. Cir. 2007) (upholding
a district court’s conclusion that there was sufficient
corroboration where the plaintiff provided oral testimony from both interested and disinterested witnesses
and documentary evidence).
Dana-Farber has presented sufficient independent
corroborating evidence to satisfy the rule of reason
analysis. The record includes agendas from all but one
of the three scientists’ collaboration meetings, slides
from the meetings, numerous emails and letters exchanged by the three scientists in 1999 and 2000, and
published journal articles. These documents explain
Dr. Freeman’s and Dr. Wood’s hypotheses, experimental results, and conclusions and are alone sufficient
to constitute corroborating evidence. See Allergan,
Inc. v. Apotex Inc., 754 F.3d 952, 968 (Fed. Cir. 2014)
(noting that corroborating evidence may be “found
through multiple written documents”).
9

Citing the Federal Circuit’s decision in Medichem, S.A. v.
Rolabo, S.L., Defendants claim that the “testimony of one coinventor cannot be used to help corroborate the testimony of another” at all. 437 F.3d 1157, 1171 (Fed. Cir. 2006). The Federal
Circuit has not repeated this statement from Medichem in a published opinion, and this proposition of law appears to be an overbroad reading of the case the Federal Circuit cited. See Lacks Indus., Inc. v. McKechnie Vehicle Components USA, Inc., 322 F.3d
1335, 1350 (Fed. Cir. 2003) (refusing to accept the oral testimony of
interested witnesses as sufficient corroboration on its own in the
absence of corroborating documents).

73a
In addition to the plethora of documents, DanaFarber provided corroboration from a number of witnesses. Dr. Brown corroborated Dr. Freeman’s testimony about his antibody and IHC work. Dr. Carreno, a
former GI scientist, confirmed that the trio met in May
2000 in Seattle. Dr. Collins at GI testified that Dr.
Freeman reached out about finding 292’s receptor and
that Dr. Wood discovered that 292 is a ligand for PD-1.
Especially significantly, Dr. Honjo, who was present for the trial, confirmed most of the events to which
Dr. Freeman and Dr. Wood testified. The “cohesive
web of allegedly corroborative evidence” leaves no
doubt that Dr. Freeman and Dr. Wood testified truthfully about the experiments they conducted, the communications they exchanged, and the substance of the
meetings they attended. Hahn v. Wong, 892 F.2d 1028,
1033 (Fed. Cir. 1989) (quotation omitted); see also NFC
Tech., LLC v. Matal, 871 F.3d 1367, 1372 (Fed. Cir.
2017) (“At bottom, the goal of the analysis is to determine whether the inventor’s story is credible.” (quotation omitted)).
Faced with this flood of corroborating evidence,
Defendants do not contest Dana-Farber’s satisfaction
of the rule of reason analysis. Instead, they argue the
Court cannot consider certain insufficiently corroborated facts. They challenge the contents of Dr. Freeman’s
presentations at the October 1999 and May 2000 meetings because only Dr. Wood and Dr. Freeman testified
about what he said and his slides are unidentified and
undated. And they contend that an unwitnessed laboratory notebook is insufficient to corroborate Dr. Freeman’s testimony about the results of his September
1999 experiments that showed the inhibitory effect of
292.

74a
This argument misconstrues the corroboration requirement. The Federal Circuit has “repeatedly rejected an element-wise attack on corroboration of oral
testimony.” TransWeb, 812 F.3d at 1302. A putative
joint inventor need not corroborate every detail of his
testimony. See, e.g., Ohio Willow Wood Co. v. Alps S.,
LLC, 735 F.3d 1333, 1348 (Fed. Cir. 2013); Cooper v.
Goldfarb, 154 F.3d 1321, 1330 (Fed. Cir. 1998); Ethicon,
135 F.3d at 1464. In fact, such a requirement would be
“the antithesis of the rule of reason.” Cooper, 154 F.3d
at 1331 (quoting Knorr v. Pearson, 671 F.2d 1368, 1374
(C.C.P.A. 1982)). The rule of reason is instead a “flexible … demand for independent evidence that, as a
whole, makes credible the testimony of the purported”
joint inventor. TransWeb, 812 F.3d at 1302 (quoting
Fleming v. Escort Inc., 774 F.3d 1371, 1377 (Fed. Cir.
2014)).
Defendants cite to the Federal Circuit’s recent decision in Apator Miitors ApS v. Kamstrup A/S, 887
F.3d 1293 (Fed. Cir. 2018), to support their argument
that the Court must ignore specific facts that are insufficiently corroborated. The case is easily distinguishable. In Apator, the Federal Circuit found that the appellant had failed to antedate a prior art reference because it did not present independent corroborating evidence of its inventor’s testimony concerning his conception of the invention. Id. at 1296. The copies of two
emails to which the inventor testified that he had attached documents with drawings demonstrating the
invention did not actually show that any documents
were attached. Id. The inventor testified that the date
listed on another document was not the date he created
it, but he had no independent evidence of this. Id. And
while an unwitnessed laboratory notebook has some

75a
corroborative value, it could not on its own corroborate
the inventor’s testimony of conception. Id. at 1297.
Unlike the appellant in Apator, Dana-Farber has
presented hundreds of documents, as well as testimony
from a number of independent witnesses, that corroborate the vast majority of Dr. Freeman and Dr. Wood’s
narrative. Dana-Farber also offered independent corroborating evidence for the testimony Defendants challenge. Dr. Shibayama from Ono was present at the
first collaboration meeting in October 1999. His notes
from the meeting contain information from Dr. Freeman’s slides, specifically that 292 shares around 20% of
its amino acids with B7-1 and B7-2, Dr. Freeman discovered 292 from a human ovary tumor EST, and he
had membrane and secreted versions of 292. JTX0095.0003, 5; JTX-0097.0003-4; JTX-0768.0082. While
Dr. Shibayama’s notes do not attribute this information
to Dr. Freeman, they provide some corroboration of
what Dr. Freeman presented at the meeting. Numerous emails demonstrate that Dr. Honjo intended to
meet with Dr. Freeman and Dr. Wood at the AAI
meeting in Seattle in May 2000. The metadata showing
that Dr. Freeman last edited his slides the day before
the meeting corroborates his testimony that he finished
the slides a few hours before getting on the airplane to
go to Seattle. JTX-0815.0011.10 And the relevant pages
of the unwitnessed laboratory notes list dates in late
August and early September 1999, as Dr. Freeman testified. JTX-0229.0323; JTX-0778.0038. While “an un10

Defendants raised an objection to the introduction of the
metadata before Dr. Freeman’s testimony. However, they agreed
that they would not object if Dana-Farber could establish the authenticity of the slides during Dr. Freeman’s direct testimony, and
they did not preserve their objection when the slides were entered
into evidence. T3-124:15.

76a
witnessed laboratory notebook, alone, cannot corroborate an inventor’s testimony of conception,” it may
serve as an “aid in corroborating witness testimony
alongside other, more persuasive, evidence.” Apator
Miitors, 887 F.3d at 1297. For the foregoing reasons, I
find Dr. Freeman’s and Dr. Wood’s testimony sufficiently corroborated and therefore credible.
D. The Collaboration of Dr. Freeman, Dr. Wood,
and Dr. Honjo
To show that Dr. Freeman and Dr. Wood are joint
inventors of the Honjo patents, Dana-Farber must
demonstrate that they collaborated with Dr. Honjo to
develop the methods claimed in the patents. See Falana, 669 F.3d at 1357 (“A joint invention is the product
of a collaboration between two or more persons working together to solve the problem addressed.” (quoting
Burroughs Wellcome, 40 F.3d at 1227)). There is no
question that the three collaborated. The trio met for
the first time in October 1999 to discuss the PD-1/PDL1 pathway. After this meeting, Dr. Freeman and Dr.
Wood exchanged reagents with Dr. Honjo, and Dr.
Wood and Dr. Honjo formally added the PD-1/PD-L1
pathway to the SST collaboration. The three continued
to exchange confidential data for over a year. Dr. Honjo and Dr. Wood met four more times over the next
eighteen months, twice with Dr. Freeman present. The
three co-authored multiple journal articles on the PD1/PD-L1 pathway. Despite the fact that they did not
physically work on the invention together, Dr. Freeman, Dr. Wood, and Dr. Honjo plainly had an “open line
of communication … in temporal proximity to their inventive efforts.” Eli Lilly, 376 F.3d at 1359; see also
CODA Dev. S.R.O. v. Goodyear Tire & Rubber Co., 916
F.3d 1350, 1359-60 (Fed. Cir. 2019) (holding that allega-

77a
tions that the plaintiff and defendant companies had
two meetings and signed a nondisclosure agreement to
cooperate in developing a specific technology were sufficient to allege collaboration).
Defendants point to Dr. Freeman and Dr. Wood’s
November 1999 patent application, their work without
Dr. Honjo, and Dr. Wood and Dr. Honjo’s March 2000
meeting in Japan without Dr. Freeman to argue that
the three scientists were not fully collaborating. There
is no requirement, however, that joint inventors take
every step in the collaboration together. See Falana,
669 F.3d at 1357. That two of the three interacted
without the third at times does not cast doubt on their
tripartite collaboration. In their post-trial brief, Defendants pivot, arguing for the first time (and only after
they settled with Pfizer) that Dr. Wood and Dr. Honjo
collaborated without Dr. Freeman. Dkt. No. 380 at 12.
Yet Dr. Honjo’s recognition of Dr. Freeman as a collaborator in his Nobel Prize speech, together with the extensive evidence at trial, leaves no doubt that Dr.
Freeman was a part of the collaboration.
Defendants also contend that the collaboration was
limited to identifying the ligand for PD-1 and its function. Dr. Honjo testified to this effect at trial. Compare T4-185:19-23 (“[T]he whole focus of the collaboration was to find the ligand”), with T4-186:16-21 (explaining that he agreed to collaborate further with Dr.
Freeman and Dr. Wood after discovering PD-L1 because “[w]e have to identify the function”). His testimony about the purpose of the collaboration was underinclusive. By the October 1999 meeting in Cambridge,
Dr. Wood had identified Dr. Freeman’s 292 molecule as
the ligand for PD-1, as well as its inhibitory function,
and conveyed this to Dr. Honjo. If the whole purpose
of the collaboration were to identify the ligand and its

78a
function, there would have been no reason to add the
PD-1/PD-L1 pathway to the SST collaboration (which
was specifically aimed at pharmaceutical development),
continue to exchange confidential experimental data,
co-author multiple journal articles, and meet four more
times over the next eighteen months. Dr. Honjo himself told Dr. Clark of GI in a June 2000 email that he
was “very pleased with [the] recent productive collaboration on PD-1 and PD-L1” and felt that the “collaboration [was] coming close to drug development.” JTX0617.0001.
The trio were also talking about the role of the PD1/PD-L1 pathway in the treatment of diseases, including cancer, throughout their collaboration. At the
March 2000 meeting in Kyoto, Dr. Wood and Dr. Honjo
discussed therapeutic applications for anti-PD-1 and
anti-PD-L1 antibodies, including treating cancer. They
discussed this again with Dr. Freeman at the May 2000
meeting in Seattle. Dr. Freeman included the possibility that tumors use PD-L1 to inhibit an antitumor immune response in two journal articles he wrote with
Dr. Wood and Dr. Honjo throughout 2000 and an abstract he sent to Dr. Honjo in August 2000. At the September 2000 meeting in Cambridge, Dr. Honjo discussed preliminary results from Dr. Iwai’s mouse tumor model study. I find that one purpose of the collaboration among the three scientists was to harness the
PD-1/PD-L1 pathway to treat cancer.
Defendants’ reliance on Rubin v. General Hospital
Corp., No. 09-10040-DJC, 2011 WL 1625024 (D. Mass.
Apr. 28, 2011), to cast doubt on the collaboration is misplaced. In Rubin, the putative joint inventors and
named inventors never had any direct communication.
Id. at *2, *6. To show collaboration, the putative joint
inventors relied on their awareness of the named in-

79a
ventors’ research and their claim that one of the named
inventors read their journal abstract. Id. at *6. In finding this evidence insufficient for collaboration, the court
noted that the putative joint inventors filed their own
provisional patent application after the alleged collaboration without including the named inventors. Id. at *7.
From this, the court gleaned that the putative joint inventors did not consider themselves to be collaborating
with the named inventors. Id. In this case, Dr. Freeman, Dr. Wood, and Dr. Honjo had multiple collaboration meetings, exchanged confidential data and reagents, and co-authored multiple journal articles. While
the exclusion of Dr. Honjo from Dr. Freeman and Dr.
Wood’s provisional patent application is troubling, it
came only two weeks after their first tripartite collaboration meeting, and the collaboration continued robustly well after this time.
When Dr. Honjo initially asked Dr. Wood to help
find the ligand for PD-1 in September 1998, he did not
know this partnership would expand into a tripartite
collaboration with Dr. Freeman to develop therapeutic
applications for the PD-1/PD-L1. Regardless, as Dr.
Honjo admitted in his contemporaneous email to Dr.
Clark quoted above, this is what happened. DanaFarber has shown by clear and convincing evidence
that Dr. Freeman, Dr. Wood, and Dr. Honjo collaborated to discover and characterize the PD-1/PD-L1 pathway and to develop therapeutic applications based on
blocking this inhibitory interaction with antibodies and
enhancing the immune response for treatment of cancer
and other diseases.
E. Conception of the Honjo Patents
Because “one does not qualify as a joint inventor by
merely assisting the actual inventor after conception of

80a
the claimed invention,” Ethicon, 135 F.3d at 1460, contributions Dr. Freeman and Dr. Wood made before the
date of conception are determinative of the joint inventorship analysis, see, e.g., Gen. Elec. Co. v. Wilkins, 750
F.3d 1324, 1332 (Fed. Cir. 2014) (finding no joint inventorship where the named inventors “had already conceived of their [invention] before corresponding with”
the putative co-inventor). Defendants propose a conception date of October 27, 2000, after Dr. Iwai presented the results of her in vivo mouse tumor model
experiments. Dana-Farber does not contest this date.
Before this date, Dr. Honjo, Dr. Minato, Dr. Iwai, Dr.
Freeman, and Dr. Wood all had the idea and hope that
the PD-1/PD-L1 pathway might have some role in tumor immunology. Dr. Iwai’s in vivo experiments
demonstrated that tumors expressing PD-L1 grew
more quickly in normal mice than in PD-1 knockout
mice. With these results, Dr. Honjo had a “definite and
permanent idea” that the PD-1/PD-L1 pathway played
a role in inhibiting the immune response to tumors and
permitted tumors to grow. In re VerHoef, 888 F.3d at
1366 (quoting Sewall, 21 F.3d at 415). This understanding also gave him the “definite and permanent idea”
that blocking the PD-1/PD-L1 pathway using antibodies could treat cancer.11

11

I am not convinced Dr. Honjo conceived of all of the claims
of all six patents by this date. Some dependent claims list types of
tumors for which there is no evidence Dr. Honjo had any data or
had ever specifically considered before this date. The parties have
not presented sufficient evidence of the events after October 2000
to determine when Dr. Honjo conceived of all the claims. Because
Dr. Freeman and Dr. Wood are joint inventors of all six patents
based on their contributions before October 27, 2000, I need not
decide the dates of conception of these dependent claims.

81a
Based on this conception date, Defendants emphasize that Dr. Freeman and Dr. Wood cannot be joint
inventors of the Honjo patents because they did not
contribute to Dr. Iwai’s in vivo mouse experiments that
triggered conception. In Vanderbilt University v.
ICOS Corp., however, the Federal Circuit expressly
rejected the argument that all contributors had to
“have their own contemporaneous picture of the final
claimed invention in order to qualify as joint inventors.”
601 F.3d at 1303. Instead, the law requires only that “a
group of co-inventors … collaborate and work together
to collectively have a definite and permanent idea of the
complete invention.” Id. at 1308. This holding fits with
the joint inventorship statute’s recognition that two or
more people may be joint inventors even if they did not
work “at the same time.” 35 U.S.C. § 116(a). In addition, the statute codified the holding of Monsanto Co. v.
Kamp, 269 F. Supp. 818 (D.D.C. 1967), including the
principle that “[i]t is not necessary that the entire inventive concept should occur to each of the joint inventors.” Kimberly-Clark, 973 F.2d at 916 (quoting Monsanto, 269 F. Supp. at 824).
Before Vanderbilt University, the Federal Circuit
was less clear on whether joint inventors must achieve
contemporaneous conception of the entire invention.
See, e.g., Ethicon, 135 F.3d at 1460 (“One who simply
provides the inventor with well-known principles or
explains the state of the art without ever having ‘a firm
and definite idea’ of the claimed combination as a whole
does not qualify as a joint inventor.”); Burroughs Wellcome, 40 F.3d at 1229 (“[E]ach inventor must contribute to the joint arrival at a definite and permanent idea
of the invention as it will be used in practice.”). The
Federal Circuit’s direct holding on point in Vanderbilt
University is controlling. While an invention is not

82a
complete until one of the joint inventors reaches conception, Burroughs Wellcome, 40 F.3d at 1227-28, a coinventor need only make a not insignificant contribution to conception, see Fina Oil, 123 F.3d at 1474 (rejecting the notion that, “because the first person did
not conceive or reduce to practice the entire claimed
invention, he or she did not at least contribute in some
significant way to the ultimate conception”).
Accordingly, while the fact that Dr. Freeman and
Dr. Wood were not present during Dr. Iwai’s in vivo
mouse tumor model experiments is relevant to determining how significant their contributions were to conception, it is not dispositive. See Rhone-Poulenc Agro,
S.A. v. Monsanto Co., 445 F. Supp. 2d 531, 549
(M.D.N.C. 2006) (finding co-inventorship even though
the putative co-inventors were not informed of the final
experiments that led to conception). Instead, Dr.
Freeman and Dr. Wood are joint inventors if they made
a significant contribution to reaching conception. See
Falana , 669 F.3d at 1359 (holding that an individual
was a joint inventor of a patent claiming a type of compound because he contributed the method used to make
the compounds, even though he left the research team
before the team created the novel compounds).
F. Dr. Freeman’s and Dr. Wood’s Contributions
to Conception
1. Dr. Freeman and Dr. Wood’s Discovery of
PD-L1 and Blocking Antibodies and Dr.
Wood’s Discovery of the Inhibitory Effect
of the PD-1/PD-L1 Pathway
Dr. Freeman and Dr. Wood’s first contribution was
their joint discovery and characterization of PD-L1.
Dr. Freeman’s BLAST search in July 1998 uncovered

83a
292 as a B7 ligand. Although the 292 ESTs Dr. Freeman identified came from a public database, the fact
that 292 was a B7-like molecule was not known. He
subsequently showed that 292 was immunologically active but, unlike B7-1 and B7-2, did not bind to CD28 or
CTLA-4. He provided the 292 molecule to GI to help
identify its receptor. Meanwhile, once Dr. Honjo asked
for Dr. Wood’s assistance in identifying the ligand for
PD-1, Dr. Wood hypothesized that the ligand would be
a B7-like molecule because of PD-1’s role in regulating
the immune system and its similarity to CTLA-4. By
testing a group of B7 ligands Dr. Freeman had sent to
GI, he was able to identify 292 as PD-L1, a ligand for
PD-1, which he communicated to Dr. Honjo in October
1999. Dr. Freeman then disclosed PD-L1’s amino acid
sequence to Dr. Honjo.
Defendants point out that Dr. Chen at the Mayo
Clinic discovered that 292 was a B7 ligand before Dr.
Freeman. Dr. Chen published his discovery in December 1999, however, after Dr. Freeman independently
identified 292 in July 1998, shared his molecule with GI
in July 1999, and discussed his knowledge about 292 at
the first collaboration meeting with Dr. Honjo in October 1999. “Generally speaking, scientific articles become part of the prior art on the date of their publication.” Univ. of Utah v. Max-Planck-Gesellschaft Zur
Föerderung Der Wissenschaften e.V., 134 F. Supp. 3d
576, 585 (D. Mass. 2015). Dr. Chen’s earlier discovery
therefore was not a “well-known concept[] and/or the
current state of the art” at the time of Dr. Freeman’s
contribution. Pannu, 155 F.3d at 1351.
That Dr. Iwai might have identified the ligand after
returning from her leave of absence is also irrelevant.
Defendants cite no case that permits speculation as to
whether the named inventors would have eventually

84a
reached the same result without a putative joint inventor’s contribution. The fact remains that it was Dr.
Freeman and Dr. Wood, not Dr. Iwai, who discovered
PD-L1 and provided it to Dr. Honjo. In addition, since
Dr. Iwai and other graduate students in Dr. Honjo’s
laboratory tried and failed to identify the ligand, the
discovery of 292 required more than “the basic exercise
of ordinary skill in the art.”12 Nartron Corp., 558 F.3d
at 1357.
Dr. Wood’s second contribution was his discovery
that the interaction between PD-1 and PD-L1 inhibits
the immune response. After discovering PD-L1, Dr.
Wood conducted in vitro experiments to study its function, which demonstrated that the pathway is inhibitory. Dr. Wood shared these results with Dr. Freeman
and Dr. Honjo at the October 1999 meeting. Dr. Honjo
had not knowingly conducted any experiments that involved PD-L1 before this meeting.
Dr. Greene criticized Dr. Wood’s experiments because Dr. Wood did not use a non-PD-1 control, whereas Dr. Honjo subsequently showed inhibition in a more
robust experiment utilizing cells from a PD-1 knockout
mouse. T7-8:14-9:23, 13:2-14:8. Dr. Honjo’s more definitive experiment does not diminish Dr. Wood’s contribution. Scientific collaborations frequently involve one
researcher building on the work of another to advance
the understanding of both. Failing to credit Dr. Wood’s
in vitro experiments would disincentivize scientists
12

The parties and their experts spar over whether Dr. Iwai’s
experiments before her leave of absence showed binding with PDL1 or another molecule. T5-69:3-78:9; T6-176:11-180:12. In the
end, it does not matter whether the interactions Dr. Iwai observed
were false positives for evaluating this contribution because, as
Defendants concede, she never identified PD-L1.

85a
from participating in this type of innovative research
collaboration. See Univ. of Utah, 134 F. Supp. 3d at
588-89.
Defendants contend that Dr. Wood could not have
contributed an understanding of PD-L1’s function at
the October 1999 meeting because he was confused as
to whether PD-L1 is an inhibitory or stimulatory ligand. To demonstrate his confusion, they point to his
November 1999 provisional patent application with Dr.
Freeman and his email exchange in late November and
early December 1999 with Dr. Honjo. This evidence
shows only that Dr. Wood believed PD-L1 could have a
second, stimulatory receptor. Although this hypothesis
turned out to be incorrect, it was reasonable given that
B7-1 and B7-2 have separate inhibitory and stimulatory
receptors. Even Dr. Honjo propounded this theory in
journal articles as late as 2003. JTX-0305.0007; JTX0356.0002; JTX-0819.0008. In any event, Dr. Wood’s
slides demonstrate that he told Dr. Honjo during the
October 1999 meeting that the interaction between PD1 and PD-L1 is inhibitory.
Defendants also argue that Dr. Honjo already knew
PD-1 is an inhibitory receptor before Dr. Wood’s experiments with PD-L1. See Maxtech Consumer Prods.,
Ltd. v. Robert Bosch Tool Corp., 255 F. Supp. 3d 833,
848 (N.D. Ill. 2017) (finding no joint inventorship where
the alleged contribution “added nothing to an idea the
named inventors already had”); Univ. of Utah, 134 F.
Supp. 3d at 588 (same where the putative joint inventor
shared information the named inventor had previously
received). As Dr. Greene pointed out, the receptor, not
the ligand, determines the function of a signaling pathway. T6-193:1-4.

86a
But the proof is in the pudding. Dr. Honjo reached
out to Dr. Wood to find PD-L1 because he did not fully
understand the biological mechanism of the PD-1 signaling pathway. While Dr. Honjo knew that activation
of PD-1 has an inhibitory effect, he did not know that
PD-L1 triggers this effect when it binds to PD-1 or how
strong the inhibitory signal is. Furthermore, Dr. Murphy explained that not all antibodies that bind to the
receptor or ligand block the signal. T5-57:19-58:2. Dr.
Greene did not contest that Dr. Honjo needed to understand the receptor-ligand interaction to develop antibodies to block the pathway as a method of treating
cancer. T7-115:14-24. Dr. Honjo’s efforts to identify
the ligand for PD-1, including assigning multiple graduate students to the project and then seeking GI’s assistance, belie the notion that he already knew what he
needed about PD-1 before collaborating with Dr.
Freeman and Dr. Wood.
Dana-Farber argues that Dr. Freeman also deserves credit for confirming that the PD-1/PD-L1
pathway is inhibitory. Dr. Freeman did conduct an experiment with 292 in late August/early September 1999
that showed inhibition. But the record is devoid of evidence that he shared these results with Dr. Honjo. See
Eli Lilly, 376 F.3d at 1364 (setting aside a jury verdict
where there was insufficient evidence to show that the
putative joint inventor communicated his purported
contribution to the named inventors).
Third, Dr. Freeman and Dr. Wood discovered that
anti-PD-1 and anti-PD-L1 antibodies can block the
pathway’s inhibitory signal. Dr. Wood conducted an
experiment using one of Dr. Honjo’s anti-PD-1 antibodies that showed blockage of the PD-1/PD-L1 pathway,
and both Dr. Freeman and Dr. Wood developed their
own anti-PD-L1 blocking antibodies. They communi-

87a
cated these results to Dr. Honjo at multiple collaboration meetings before the date of conception.
Defendants contend that any immunologist at the
time would have known that antibodies are a therapeutic tool to block a signaling pathway. Dr. Murphy responded that not all antibodies that bind to the receptor
or ligand block the signal. While the sharing of the antibodies is strong proof of collaboration, the particular
antibodies Dr. Freeman and Dr. Wood developed are
not significant, inventive contributions, as the Honjo
patents do not claim antibodies. See Caterpillar Inc. v.
Sturman Indus., Inc., 387 F.3d 1358, 1378 (Fed. Cir.
2004) (declining to find the contribution of two specific
types of steel to be inventive contributions where the
limitation in the patent referred to a broader category
of materials). But their discovery that anti-PD-1 and
anti-PD-L1 antibodies can block the pathway is not an
insignificant contribution to the invention.
As a coda, the Court rejects Defendants’ claim that
Dr. Honjo could use Dr. Freeman’s and Dr. Wood’s discovery and characterization of PD-L1 and the PD1/PD-L1 pathway (as well as the other contributions
described below) without including them as joint inventors because Dr. Freeman and Dr. Wood published
their discoveries in 2000 before Dr. Honjo filed his patent application. Throughout the collaboration, Dr.
Freeman and Dr. Wood exchanged confidential, unpublished experimental results with Dr. Honjo. The
Federal Circuit has never “barred co-inventorship, as a
matter of law, just because the contribution later appeared in the public domain, where the ideas contributed were not contemporaneously available to an ordinary skilled artisan and were otherwise significant in
producing the inventive conception at the time it was

88a
completed.” CardiAQ Valve Techs., Inc. v. Neovasc
Inc., 708 F. App’x 654, 660 (Fed. Cir. 2017).
This Court’s decision in University of Utah v. MaxPlanck-Gesellschaft Zur Föerderung Der Wissenschaften e.V. is not to the contrary. In University of Utah, a
university alleged that one of its professors was a joint
inventor of patents relating to RNA interference based
on a confidential manuscript of hers a named inventor
read a few weeks before publication and a conversation
she had with him at a scientific conference. 134 F.
Supp. 3d at 581-82, 585, 588. This Court held that the
professor was not a joint inventor because she did not
collaborate with the named inventors. Id. at 585. As to
the manuscript, the Court noted that, although the
named inventor received a confidential copy with the
professor’s alleged contribution, he would have received the same information as prior art when it was
published three weeks later. Id. at 586-87. Here, there
is no doubt Dr. Freeman, Dr. Wood, and Dr. Honjo collaborated sufficiently to qualify as joint inventors as
early as October 1999, almost three years before Dr.
Honjo filed his first patent application and a year before the conception date. Dr. Freeman and Dr. Wood
shared their confidential experimental results on PDL1 with Dr. Honjo a year before publishing them.
2. Dr. Freeman’s Discovery of the Expression of PD-L1 on Certain Tumors
Dr. Freeman also contributed his discovery that
PD-L1 is expressed on certain tumors. The 292 ESTs
he identified via his BLAST search came from a human
ovarian tumor, which he told Dr. Honjo at the October
1999 meeting. As both experts explained, the possible
expression of a B7 ligand on a tumor cell was notable
because other B7 ligands are only expressed on im-

89a
mune cells. T5-42:25-43:22; T7-61:19-62:8. Dr. Freeman
used the source of the 292 ESTs as a starting point for
further investigation. With Dr. Dorfman’s help, he
conducted IHC experiments in early 2000 to examine
PD-L1 expression on solid human tumor tissues. The
IHC work showed that PD-L1 is highly expressed on
different types of human tumors.
Together, these observations led Dr. Freeman to
add a sentence to the draft of the article he co-authored
with Dr. Wood and Dr. Honjo about the possibility that
tumors use PD-L1 to inhibit an antitumor immune response. Dr. Honjo saw this addition in early April 2000
when he received the new draft. Dr. Freeman communicated his IHC results to Dr. Honjo at the May 2000
meeting in Seattle and then again at the September
2000 meeting in Cambridge. He also shared data from
his laboratory showing PD-L1 expression in certain
mouse tumor cell lines by September 6, 2000, when he
sent Dr. Honjo a draft of their article on PD-L2.
Defendants argue that Dr. Honjo already knew
that human tumors express PD-L1 from Dr. Iwai’s experiments in the summer of 1999. Her experiments attempting to identify PD-L1 did show weak binding between her PD-1 fusion protein and Daudi cells from a
human blood cell cancer line. She recognized, however,
that her experiments might have shown false positives
because of the type of fusion protein she used, and she
expressed uncertainty about her results.
JTX0125.0022, 24. After Dr. Iwai’s results, Dr. Honjo continued to emphasize the connection between PD-1 and
autoimmune disease (not cancer), including in his October 1999 presentation. Dr. Freeman’s IHC results provided much stronger evidence of PD-L1 expression on
a range of solid human tumors than Dr. Iwai’s results
did. And while Dr. Minato also investigated PD-L1 ex-

90a
pression on various cell lines, he only tested mouse cells
before the date of conception and did not use solid tumors.
Dr. Freeman gets credit for this significant contribution despite the fact that Dr. Dorfman assisted him
with the IHC experiments. See Fina Oil, 123 F.3d at
1473 (noting that a “person does not lose his or her status as a joint inventor just because he or she used the
services, ideas, and aid of others in the process of perfecting the invention”). While Dr. Dorfman chose the
tissues to study, administered the antibodies, and prepared the staining, he did so at Dr. Freeman’s direction. Dr. Freeman and Dr. Dorfman collaborated to investigate PD-L1 expression, but there is no evidence
Dr. Dorfman was part of the collaboration with Dr.
Wood and Dr. Honjo. It was Dr. Freeman, not Dr.
Dorfman, who communicated the results to Dr. Honjo.
Dr. Greene downplayed this contribution by noting
that Dr. Freeman’s IHC work did not tie PD-L1 to cancer specifically but instead showed PD-L1 expression
on both tumor and normal tissues. T6-195:2-24; T733:13-19. Defendants also contend a reasonable scientist would not conclude from Dr. Freeman’s discovery
of the 292 ESTs on ovarian tumor cells that PD-L1 is
functionally related to cancer. However, Dr. Freeman
made this connection, and he was right. He also shared
it with Dr. Wood and Dr. Honjo. Given that other B7
ligands are not found on tumor cells, I credit Dr. Freeman’s testimony that the expression of PD-L1 on tumor
cells was an important finding.

91a
3. Dr. Freeman and Dr. Wood’s Discovery
and Characterization of PD-L2
Dr. Freeman and Dr. Wood also contributed
knowledge of the existence, structure, and function of
PD-L2. Dr. Freeman discovered PD-L2 via a BLAST
search for molecules similar to PD-L1. Dr. Freeman
and Dr. Wood together generated the full-length sequence for the molecule, showed that it binds to PD-1
and inhibits the immune response, and found that it is
expressed on certain mouse tumor cells. Dr. Freeman
told Dr. Honjo about their discovery via email on
March 24, 2000, and Dr. Wood and Dr. Freeman provided more details about PD-L2 to Dr. Honjo at the
March, May, and September 2000 meetings. Dr. Honjo
never attempted to identify a second ligand for PD-1 or
conduct any experiments involving PD-L2. Everything
he knew about PD-L2 came from Dr. Freeman and Dr.
Wood.
Defendants point out that Dr. Freeman discovered
PD-L2 in a publicly available database and that another
scientist had already disclosed PD-L2’s sequence. T735:3-9. Before Dr. Freeman and Dr. Wood identified
the molecule as a ligand for PD-1, however, its receptor
and biological function were unknown. T5-131:12-133:3.
4. Method of Treating Cancer
Dana-Farber claims Dr. Freeman contributed the
idea of blocking the PD-1/PD-L1 pathway as a method
of treating cancer. It is clear Dr. Honjo and his colleagues were focused on the relationship between PD-1
and autoimmune disease, not cancer, before the collaboration with Dr. Freeman and Dr. Wood began. All
three scientists were thinking about the relationship
between the PD-1/PD-L1 pathway and cancer in the

92a
winter and spring of 2000: Dr. Freeman began his IHC
experiments in January and included two sentences
about the pathway and cancer in their draft article in
March; Dr. Wood mentioned using antibodies to block
the pathway to stimulate an immune response to treat
cancer at the SST collaboration meeting in March; and
Dr. Iwai (working with Dr. Honjo) began her in vivo
mouse tumor model experiments in March. As noted
above, this simultaneous focus on the PD-1/PD-L1
pathway and cancer and the numerous communications
the scientists exchanged on this topic are clear and
convincing evidence that they collectively conceived of
harnessing the pathway as a method of treating cancer.
The parties battle over who had the first idea of
blocking the pathway as a method of treating cancer.
All three scientists began to consider this idea seriously
in early 2000. However, Dana-Farber has not produced
clear and convincing evidence that Dr. Freeman or Dr.
Wood came up with this idea first and communicated it
to Dr. Honjo before Dr. Honjo had the idea himself.
The first time Dr. Freeman directly communicated his
idea of a connection between the pathway and cancer to
Dr. Honjo was in the edits he made to their draft journal article in March, but there is no evidence Dr. Honjo
saw these edits before April. Dr. Wood first communicated his idea to Dr. Honjo at the end of March 2000 at
their SST collaboration meeting in Kyoto. Meanwhile,
in Japan, Dr. Iwai was planning her in vivo mouse tumor experiments, indicating that she and Dr. Honjo
were already focused on the connection between the
pathway and cancer.
The fact that the Court cannot attribute this contribution to Dr. Freeman or Dr. Wood individually by
clear and convincing evidence does not doom their joint
inventorship claim. The trio’s simultaneous focus on

93a
blocking the pathway to treat cancer in early 2000
shows that they were all working toward a shared goal.
Even if it is not clear who was the first to contribute
the idea of blocking the pathway to treat cancer, Dr.
Freeman and Dr. Wood made the contributions described above as part of a collaboration aimed at developing a treatment for cancer, and they all understood
and communicated with excitement the connection between their discoveries relating to the pathway and
cancer. Ultimately, conception of the inventions in the
Honjo patents was the result of the collaboration of all
three scientists.
5. Dr. Freeman’s and Dr. Wood’s Provision
of Reagents
Dr. Freeman and Dr. Wood also provided PD-L1
fusion protein and anti-PD-L1 antibody reagents that
Dr. Honjo and Dr. Iwai used in their experiments.
Providing reagents that named inventors use to develop their invention is not a meaningful contribution to
conception. See BJ Servs. Co. v. Halliburton Energy
Servs., Inc., 338 F.3d 1368, 1373-74 (Fed. Cir. 2003).
Although provision of the PD-L1 fusion protein hastened Dr. Honjo’s conception of the method of treating
cancer, joint inventorship law requires more than
showing that the putative joint inventor made it easier
for the named inventor to conceive of the claim or that
the named inventor would not have achieved conception but for the contribution. See Yeda, 443 F. Supp. 2d
at 621; Eli Lilly & Co. v. Crabtree, 485 F. Supp. 2d 982,
1000 (S.D. Ind. 2006). Dr. Freeman’s and Dr. Wood’s
inventive contributions were not the provision of reagents but instead discovery of those reagents’ existence, structure, and function.

94a
G. Significance of Dr. Freeman’s and Dr. Wood’s
Contributions to the Claims in the Honjo Patents
The Court must determine whether these contributions relating to the PD-1/PD-L1 pathway and PD-L2
were significant to conception in light of the dimension
of the full inventions in the six Honjo patents. See In re
VerHoef, 888 F.3d at 1366. The patents all claim methods of treating cancer by administering anti-PD-1 or
anti-PD-L1 antibodies. Defendants argue only briefly
and without analysis that the significance of Dr. Freeman’s and Dr. Wood’s contributions varies among the
patents. They point out more directly that Dr. Freeman and Dr. Wood each made different contributions to
conception of the patents. While that is true, I find that
Dr. Freeman and Dr. Wood worked together on important contributions, namely the discovery of PD-L1,
characterization of the PD-1/PD-L1 pathway, and discovery that antibodies block the inhibitory effect of the
pathway and stimulate the immune system.13 This contribution was significant to conception of the inventions
in all six Honjo patents. Nevertheless, I discuss each
patent because the joint inventorship analysis asks
about contributions to the invention specifically claimed
in a patent.
1. Use of Anti-PD-1 or Anti-PD-L1 Antibodies to Treat Cancer
Dr. Freeman and Dr. Wood are clearly joint inventors of the ’899 Patent. Claim 1 recites a “method of
treating a tumor in a human patient in need thereof
comprising administering to the human an effective
13

Both Dr. Freeman and Dr. Wood made this final contribution, but they did their antibody work separately.

95a
amount of an anti-PD-L1 monoclonal antibody that inhibits an interaction between PD-1 and PD-L1, wherein
the anti-PD-L1 monoclonal antibody treats the tumor
in the patient.” JTX-0006.0040. The ’899 Patent contains three other independent claims (claims 19, 36, and
52) that also involve decreasing, suppressing, and treating tumors by blocking the interaction between PD-1
and PD-L1 with an anti-PD-L1 monoclonal antibody.
JTX-0006.0040-41.
Both Dr. Freeman and Dr. Wood made not insignificant contributions to conception of this method. Dr.
Freeman and Dr. Wood jointly discovered the molecular structure for PD-L1. This discovery was essential
for conception of a method of using an anti-PD-L1 antibody to block the PD-1/PD-L1 pathway, which the ’899
Patent specifically claims. Dr. Wood also provided Dr.
Honjo with the first experimental data confirming that
PD-L1 inhibits the immune response. Without this
knowledge, there would be no reason to use an antagonistic antibody to treat cancer. These contributions
provided fundamental building blocks for Dr. Iwai’s
tumor model experiments on the effect of the PD-1/PDL1 pathway on tumor growth. And Dr. Honjo learned
from both Dr. Freeman and Dr. Wood that antibodies
could block the interaction between PD-1 and PD-L1,
which is the method of treating cancer claimed in the
’899 Patent.
Dr. Freeman’s discovery that PD-L1 is highly expressed on human tumor cells was also a significant
contribution because the method claimed in the ’899 Patent is premised on the tumor’s expression of PD-L1.
As Dr. Murphy explained, the results of Dr. Iwai’s tumor model experiments only triggered conception because Dr. Honjo knew from Dr. Freeman’s work that,
like the transfected tumors in Dr. Iwai’s experiments,

96a
human tumors express PD-L1. T5-89:19-90:7. The fact
that Dr. Iwai planned her mouse tumor model experiments in March before Dr. Freeman communicated his
IHC results concerning human tumors to Dr. Honjo in
May does not undermine the significance of this contribution to conception. While an anti-PD-1 or anti-PD-L1
antibody may enhance an immune response against a
tumor by blocking inhibitory signaling triggered by
PD-L1 on a nontumor cell, conception of the invention
was inextricably linked to the expression of PD-L1 on
human tumors. Even Dr. Greene admitted that Dr.
Honjo and Dr. Iwai would not have designed their in
vivo experiments the way they did if they did not know
that human tumors express PD-L1. T7-90:25-91:8. Dr.
Freeman was the first to make that discovery.
In Defendants’ version of the events at issue, Dr.
Freeman and Dr. Wood provided Dr. Honjo with
knowledge of PD-L1’s existence but had no understanding of its functional use. Defendants analogize
this case to BJ Services Co. v. Halliburton Energy Services, Inc., in which the Federal Circuit held that the
inventor of a polymer listed in a dependent claim was
not a joint inventor of a patent claiming a method of
fracturing a subterranean formation because he “had no
knowledge of the method [or] how the polymer would
be used.” 338 F.3d at 1373. Dr. Freeman’s and Dr.
Wood’s contributions went well beyond the mere provision of a molecule. When Dr. Freeman sent GI his 292
molecule, he did not know it was a ligand for PD-1 or
that it inhibits the immune response. But, as Dr. Murphy explained, his theory that 292 was a B7 ligand was
key to Dr. Wood’s ability to connect PD-1 and 292 as a
receptor-ligand pair. T5-50:23-51:14. So was Dr.
Wood’s hypothesis that PD-1’s ligand would be a B7like molecule. Id. In addition, Dr. Wood contributed

97a
experimental data showing the PD-1/PD-L1 pathway is
inhibitory, and Dr. Freeman provided knowledge of
PD-L1 expression in human tumors. These contributions enhanced Dr. Honjo’s understanding of PD-1 and
its biological function.
For similar reasons, I reject Dr. Greene’s opinion
that that these contributions were insignificant to conception. Because Dr. Greene explained the insignificance of each contribution individually, he overlooked
the way in which Dr. Freeman’s and Dr. Wood’s multiple hypotheses and experiments together were significant. For example, he opined that Dr. Wood’s experiments showing binding between 292 and PD-1 were insignificant because they did not reveal anything about
292’s function. T6-200:5-201:14. But Dr. Wood conducted additional experiments that demonstrated that
292, or PD-L1, inhibits the immune response. When
examined together, Dr. Freeman’s and Dr. Wood’s contributions relating to PD-L1’s structure and function
show an understanding of the PD-1/PD-L1 pathway on
which Dr. Honjo relied in his ensuing research.
Dr. Greene also emphasized that Dr. Freeman’s
and Dr. Wood’s contributions were not significant because they did not participate in Dr. Iwai’s in vivo experiments and thus never had a full understanding of
the effect of the PD-1/PD-L1 pathway on the antitumor
immune response. T6-164:11-165:9, 166:18-167:3. As
noted above, the law does not exclude Dr. Freeman and
Dr. Wood from joint inventorship simply because they
were not present for and did not participate in the final
step that triggered conception. This absence also does
not render their contributions scientifically insignificant. As Dr. Greene admitted, scientists often use in
vitro experiments to develop hypotheses for future research. T7-77:21-78:14. He conceded that Dr. Freeman

98a
and Dr. Wood could be joint inventors based on their in
vitro experiments as long as they understood the PD1/PD-L1 pathway. T7-49:17-50:1. Dr. Freeman and Dr.
Wood did understand the pathway and communicated
their discoveries to Dr. Honjo. Dr. Freeman and Dr.
Wood’s joint discovery of PD-L1 and blocking antibodies, Dr. Wood’s discovery that its interaction with PD-1
is inhibitory, and Dr. Freeman’s discovery of PD-L1
expression on human tumors were fundamental and essential building blocks for conception of the method of
treating cancer claimed in the patent. As a result of
these contributions, Dr. Freeman and Dr. Wood are
joint inventors of the ’899 Patent.
The other five Honjo patents claim a method of
treating cancer via administration of an anti-PD-114 or
14

Claim 1 of the ’048 Patent recites a “method for treatment
of cancer, wherein a pharmaceutically effective amount of completely human anti-PD-1 antibody is parenterally administered to
a subject with cancer in which PD-L1 or PD-L2 is over-expressed,
postoperatively.” JTX-0001.0032.
Claim 1 of the ’474 Patent recites a “method for treatment of
a tumor in a patient, comprising administering to the patient a
pharmaceutically effective amount of an anti-PD-1 monoclonal antibody.” JTX-0003.0033.
Claim 1 of the ’999 Patent recites a “method of treating a lung
cancer comprising administering a composition comprising a human or humanized anti-PD-1 monoclonal antibody to a human with
the lung cancer, wherein the administration of the composition
treats the lung cancer in the human.” JTX-0004.0038.
Claim 1 of the ’994 Patent recites a “method of treating a
metastatic melanoma comprising intravenously administering an
effective amount of a composition comprising a human or humanized anti-PD-1 monoclonal antibody and a solubilizer in a solution
to a human with the metastatic melanoma, wherein the administration of the composition treats the metastatic melanoma in the
human.” JTX-0005.0038.

99a
anti-PD-L1 antibody.15 Dr. Honjo’s conception of using
either type of antibody to cure cancer required
knowledge of PD-L1’s molecular structure and inhibitory function. As Dr. Murphy opined, both types of antibodies work by blocking the PD-1/PD-L1 pathway.
T5-55:16-56:5. Although Dr. Honjo had anti-PD-1 antibodies before the collaboration began, he conducted no
experiments before conception to test whether his antiPD-1 antibodies affected tumor growth. Dr. Freeman’s
and Dr. Wood’s contributions of PD-L1’s structure and
function and the knowledge that antibodies can block
the PD-1/PD-L1 interaction were significant and render them joint inventors of the other five Honjo patents
as well.
2. Expression or Over-Expression of PD-L1
or PD-L2
Dr. Freeman and Dr. Wood made additional not insignificant contributions to conception of the patents’
claims. The independent claims of the ’048 and ’179 Patents limit the method of treating cancer to tumors that
express or over-express PD-L1 or PD-L2.16 A tumor
15

Claim 1 of the ’179 Patent recites a “method of treating a
PD-L1-expressing tumor, comprising administering a pharmaceutically effective amount of an anti-PD-L1 antibody to a patient in
need thereof, in combination with a pharmaceutically effective
amount of one or more chemotherapy drugs, [with specific options
for the type of chemotherapy drugs].” JTX-0002.0033.
16

In addition to Claim 1 of the ’179 Patent, see supra footnote
15, the independent claims of the ’048 Patent are as follows:
1. A method for treatment of cancer, wherein a pharmaceutically effective amount of completely human antiPD-1 antibody is parenterally administered to a subject
with cancer in which PD-L1 or PD-L2 is over-expressed,
postoperatively. …

100a
“over-expresses” PD-L1 if it expresses more PD-L1
than the healthy tissue from which the tumor is derived. T5-90:23-91:19. Dr. Honjo could not conceive of
a method of treating a tumor expressing or overexpressing PD-L1 or PD-L2 without knowing of the
existence and function of PD-L1 or PD-L2. Dr. Honjo
learned about PD-L1’s molecular structure and inhibitory function from Dr. Freeman and Dr. Wood at the
October 1999 meeting. Throughout 2000, Dr. Freeman
and Dr. Wood also told Dr. Honjo about PD-L2, which
he did not study himself at all before the date of conception of the patents. Without learning from Dr.
Freeman and Dr. Wood about PD-L2, Dr. Honjo would
not have conceived of using anti-PD-1 antibodies to
block PD-1’s interaction with PD-L2. Finally, Dr. Honjo learned from Dr. Freeman that many human tumors
express high levels of PD-L1, which is the premise of
this limitation.
In the ’994 and ’999 Patents, only dependent claims
include the limitation that the tumor expresses PD-L1
or PD-L2.17 The parties dispute whether a contribution
3. A method for enhancing cytotoxic T cell activity toward PD-L1 or PD-L2 over-expressing cancer cells,
which comprises administering a pharmaceutically effective amount of a completely human anti-PD-1 antibody to
a subject with cancer in which PD-L1 or PD-L2 is overexpressed, wherein the effective dose of the completely
human anti-PD-1 antibody is administered parenterally
and postoperatively.
JTX-0001.0032.
17

The ’994 Patent contains ten dependent claims that add a
limitation requiring that the melanoma tumor express PD-L1 or
PD-L2 (claims 14-18, 20-24) and six more that require that the PDL1 or PD-L2 expression be identified by immunohistochemistry
(claims 25-30). JTX-0005.0038.

101a
to a limitation in a dependent claim renders the contributor a joint inventor of the whole patent. The Federal Circuit has explained that an individual “does not
necessarily attain the status of co-inventor by providing the sole feature of a dependent claim.” Nartron
Corp., 558 F.3d at 1358. Instead, a court must consider
the additional limitations of a dependent claim in the
context of the independent claim on which it depends.
See id.; see also Yeda, 443 F. Supp. 2d at 618 (noting
that the two dependent claims were “to be construed in
light of their dependence on” two independent claims
and evaluating a putative co-inventor’s contributions
“with an eye toward the independent claims”). The focus is whether the contribution is “not insignificant in
quality, when … measured against the dimension of the
full invention.”18 In re VerHoef, 888 F.3d at 1366 (quoting Pannu, 155 F.3d at 1351).
Sixteen of the twenty-nine dependent claims in the
’994 Patent and twelve of the twenty-nine dependent
claims in the ’999 Patent contain the additional limitation that the tumor expresses PD-L1 or PD-L2 (and in
The ’999 Patent contains seven dependent claims that add a
limitation requiring that the lung cancer tumor express PD-L1 or
PD-L2 (claims 19-25) and five more that require that the PD-L1 or
PD-L2 expression be identified by immunohistochemistry (claims
26-30). JTX-0004.0038.
18

Citing Ethicon, 135 F.3d at 1464, Dana-Farber contends
that a significant contribution to any element of any claim is sufficient for joint inventorship. As noted, the Federal Circuit clarified
in Nartron Corp. that contributing the sole limitation in a dependent claim is not necessarily sufficient for joint inventorship. 558
F.3d at 1358. Because Dr. Freeman and Dr. Wood made contributions to multiple elements of the claims in the Honjo patents that
are significant in light of the full invention, the Court need not decide under what circumstances a contribution to a single element
of a claim would render an individual a joint inventor.

102a
some claims that this expression is identified via immunohistochemistry). JTX-0004.0038; JTX-0005.0038.
Given Dr. Freeman’s and Dr. Wood’s other contributions, they did not just “provid[e] the sole feature of a
dependent claim.” Nartron Corp., 558 F.3d at 1358.
Their contributions relating to PD-L1 and PD-L2 are
significant in light of the full invention.
3. PD-L1 Expression by Specific Tumors
The ’179, ’474, and ’899 Patents include dependent
claims that limit the method of treating cancer to the
following types of tumors: carcinoma, squamous carcinoma, adenocarcinoma, sarcoma, leukemia, neuroma,
melanoma, and lymphoma.19 Between the IHC results
he presented at the May and September 2000 meetings
and the draft article he sent to Dr. Honjo two days before the September 2000 meeting, Dr. Freeman shared
data with Dr. Honjo showing that all but one of these
types of tumors express PD-L1. JTX-0332.0003; JTX0808-0813. The one exception is melanoma, the tumor
type Dr. Iwai used in her in vivo mouse experiments.
19

Claim 2 of the ’179 Patent recites the “method of claim 1,
wherein the PD-L1-expressing tumor is one or more selected from
the group consisting of carcinoma, squamous carcinoma, adenocarcinoma, sarcomata, luekosis, neuroma, melanoma, and lymphoma.”
JTX-0002.0033.
Claim 3 of the ’474 Patent recites the “method of claim 2,
wherein the tumor is one or more selected from the group consisting of a carcinoma, squamous carcinoma, adenocarcinoma, sarcoma,
leukemia, neuroma, melanoma, and lymphoma.” JTX-0003.0033.
Claims 6, 23, 38, and 57 of the ’899 Patent recite the claimed
methods of treating cancer “wherein the tumor is one or more selected from a carcinoma, a squamous carcinoma, an adenocarcinoma, a sarcoma, a leukemia, a neuroma, a melanoma, and a lymphoma.” JTX-0006.0040-41.

103a
Defendants argue that Dana-Farber is engaging in
“hindsight matching” by using Dr. Freeman’s data as
evidence of his contribution to these dependent claims.
However, Defendants have presented no evidence that
Dr. Honjo learned that these types of tumors express
PD-L1 from any source other than Dr. Freeman, and
the matching of the types of tumors is striking. While
this dependent claim limitation does not by itself render Dr. Freeman a joint inventor of the patent, it adds
another inventive contribution to Dr. Honjo’s conception of the claims.
Finally, the Court notes that Dr. Freeman’s contribution of his IHC data was even more significant for
conception of the ’999 Patent. Dr. Freeman told Dr.
Honjo in May 2000 that his IHC results showed high
levels of PD-L1 expression in a type of lung cancer.
The ’999 Patent claims the treatment of lung cancer
through an anti-PD-1 antibody. JTX-0004.0038. There
is no evidence Dr. Honjo ever conducted any independent experiments relating to the PD-1/PD-L1 pathway
in lung cancer, let alone before the date of conception.
H. Conclusion
Dr. Honjo’s discovery of PD-1, his initial research
on its inhibitory function, and the experiments he oversaw in his laboratory with PD-1 knockout mice were
vital for developing the definite and permanent idea of
the methods of treating cancer claimed in the Honjo patents. Dr. Honjo has made Nobel Prize-winning contributions to the field of cancer immunology. However,
the fact that Dr. Honjo did substantial work to develop
this method does not preclude the naming of Dr. Freeman and Dr. Wood as joint inventors for their significant individual and joint contributions. Dr. Freeman
and Dr. Wood made significant contributions to concep-

104a
tion of the inventions claimed in the Honjo patents
through their discovery of PD-L1 and PD-L2, their discoveries of blocking antibodies, Dr. Wood’s discovery of
the inhibitory interaction between PD-1 and PD-L1,
and Dr. Freeman’s discovery of the expression of PDL1 on tumor cells. Accordingly, Dana-Farber has
proven by clear and convincing evidence that Dr.
Freeman and Dr. Wood are joint inventors of the six
Honjo patents.
II. LACHES
Defendants raise a weak laches defense to all of
Dana-Farber’s claims for correction of inventorship.20
They contend Dana-Farber’s delay in waiting to bring
this lawsuit until 2015 was unreasonable because Dr.
Freeman was aware of the Honjo patents as early as
2009 or 2010. They claim both evidentiary prejudice
from lost documents and faded memories of the twentyyear-old events at issue and economic prejudice from
BMS’s significant investment into developing and
commercializing nivolumab in reliance on its exclusive
license to the Honjo patents.
A. Legal Standard
“Laches is an equitable defense that may bar an inventorship claim.” Serdarevic v. Advanced Med. Optics, Inc., 532 F.3d 1352, 1358 (Fed. Cir. 2008). “To prevail on a defense of laches, a defendant must establish
that (1) the plaintiff’s delay in filing a suit was unrea20

Because Defendants discuss their laches argument for only
one page of their proposed findings of fact and conclusions of law
and not at all in their post-trial brief, they have waived it. Given
that the laches defense is easily rejected, the Court nevertheless
addresses the argument on the merits.

105a
sonable and inexcusable; and (2) the defendant suffered
material prejudice attributable to the delay.” Lismont
v. Alexander Binzel Corp., 813 F.3d 998, 1002 (Fed. Cir.
2016) (quotations omitted). A court conducting a laches
analysis must “look at all of the particular facts and circumstances … and weigh the equities of the parties.”
A.C. Aukerman Co. v. R.L. Chaides Constr. Co., 960
F.2d 1020, 1032 (Fed. Cir. 1992) (en banc), abrogated on
other grounds by SCA Hygiene Prods. Aktiebolag v.
First Quality Baby Prods., LLC, 137 S. Ct. 954 (2017).
Delay is measured “from the time a purportedly
omitted inventor knew or should have known of the issuance of the relevant patent.” Lismont, 813 F.3d at
1002. “The length of time which may be deemed unreasonable has no fixed boundaries but rather depends on
the circumstances.” Vita-Mix Corp. v. Basic Holding,
Inc., 581 F.3d 1317, 1333 (Fed. Cir. 2009) (quoting
Aukerman, 960 F.2d at 1032). When the plaintiff raises
claims concerning multiple patents, a court must consider the delay separately for each patent. See Stark v.
Advanced Magnetics, Inc., 29 F.3d 1570, 1576 (Fed. Cir.
1994) (noting “the general rule that each patent is a
separate chose in action” and stating that “the laches
period does not accrue until each patent issues, even if
the patents are interrelated”).
Material prejudice can be “either economic or evidentiary.” Serdarevic, 532 F.3d at 1360 (quoting
Aukerman, 960 F.2d at 1033). “Economic prejudice
may arise where a defendant and possibly others will
suffer the loss of monetary investments or incur damages which likely would have been prevented by earlier
suit.” Id. (quoting Aukerman, 960 F.2d at 1033). Merely showing increased investment and expense during
the period of the delay is insufficient to show economic
prejudice, as the “change in the economic position …

106a
must be as a result of the delay.” Gasser Chair Co. v.
Infanti Chair Mfg. Corp., 60 F.3d 770, 775 (Fed. Cir.
1995). A defendant thus cannot rely solely on “a business decision to capitalize on a market opportunity.”
Hemstreet v. Comput. Entry Sys. Corp., 972 F.2d 1290,
1294 (Fed. Cir. 1992).
Evidentiary prejudice occurs if the defendant cannot “present a full and fair defense on the merits due to
the loss of records, the death of a witness, or the unreliability of memories of long past events.” Serdarevic,
532 F.3d at 1360 (quoting Aukerman, 960 F.2d at 1033).
To demonstrate evidentiary prejudice, the defendant
must point to specific evidence that was lost. Meyers v.
Asics Corp., 974 F.2d 1304, 1308 (Fed. Cir. 1992). “Conclusory statements that there are missing witnesses,
that witnesses’ memories have lessened, and that there
is missing documentary evidence, are not sufficient.”
Id.
Courts apply “a rebuttable presumption of laches … whenever more than six years passes from the
time a purportedly omitted inventor knew or should
have known of the issuance of the relevant patent” to
when he initiates litigation. Lismont, 813 F.3d at 1002.
“A § 256 claim for correction of inventorship does not
accrue until the patent issues,” however, even if “the
omitted inventor knew or should have known of the
omitted inventorship while the patent application was
pending before the PTO.” Hor v. Chu, 699 F.3d 1331,
1335-37 (Fed. Cir. 2012).
B. Analysis
The presumption of laches does not apply to any of
Dana-Farber’s correction of inventorship claims. The
first of the Honjo patents, the ’048 Patent, issued on

107a
September 29, 2009. Dana-Farber filed its complaint on
September 25, 2015, just shy of six years after issuance
of the ’048 Patent. Defendants suggest that Dr. Freeman and Dana-Farber should have been aware of the
Honjo patents before the ’048 Patent issued from the
clinical trial data on nivolumab, which Medarex first
published in 2008, but a correction of inventorship claim
does not accrue until the patent is issued. See id. Since
a presumption of laches does not apply to any of DanaFarber’s claims, Defendants bear the burden to demonstrate both unreasonable delay and material prejudice.21
Defendants argue that Dana-Farber unreasonably
delayed in bringing its claims because Dr. Freeman
learned of the ’048 Patent in 2010. Each of DanaFarber’s correction of inventorship claims accrued
when the relevant patent issued. Thus, the starting
point for measuring Dana-Farber’s delay for each claim
is not when it became aware of the first patent, though
its knowledge of the first patent may be relevant in determining the reasonableness of delay. Instead, I must
evaluate Dana-Farber’s delay patent-by-patent starting with the date each patent issued. See Lismont, 813
F.3d at 1002; Stark, 29 F.3d at 1576.
Defendants provide no evidence that the delay of
sixteen months between issuance of the ’474 Patent in
May 2014 and the filing of this lawsuit in September
2015 was unreasonable, let alone the delay of three
21

Pfizer, Wyeth, and GI did not move to intervene until September 22, 2017, more than six years after the ’048 Patent issued
in September 2009. Dana-Farber’s complaint sought to add Dr.
Wood to the ’048 Patent, however, which put Defendants on notice
of Dr. Wood’s claim. Accordingly, no presumption of laches applies
to the claim that Dr. Wood is a joint inventor of the ’048 Patent.

108a
months in bringing the claims relating to the ’999 and
’994 Patents issued in June and July 2015, respectively.
The eight days between issuance of the ’899 Patent on
August 2, 2016 and Dana-Farber’s motion to amend its
complaint was also not unreasonable. However, the delay of almost six years and over three years in bringing
suit over inventorship of the ’048 and ’179 Patents, respectively, might be a different story.
Even if these delays were unreasonable, Defendants cannot show material prejudice. For evidentiary
prejudice, Defendants fail to explain what specific documents they lost or what events their witnesses were
unable to recount. See Meyers, 974 F.2d at 1308. They
mention missing documents memorializing Dr. Honjo
and Dr. Minato’s pre-1999 discussions of PD-1 and cancer and Dr. Freeman’s inability to remember all of his
meetings with Dr. Wood, but they do not explain why
such evidence would change the outcome of the case.
Defendants also have not shown that they would not
have suffered these evidentiary issues had DanaFarber brought suit promptly after the ’048 and ’179
Patents issued.
For economic prejudice, Defendants argue that
BMS has made financial investments of over $3 billion
in developing and commercializing nivolumab in reliance on its exclusive license to the Honjo patents. This
theory of economic prejudice does not pass the blush
test. As Dr. Namouni, BMS’s head of oncology development, testified at trial, having an exclusive license to
a patent is only one of a number of factors BMS considers before investing in a product. He stated that BMS
would have invested in nivolumab regardless of whether it had an exclusive license to the Honjo patents. See
Gasser Chair Co., 60 F.3d at 775 (stating that the defendant “must prove that the change in economic posi-

109a
tion would not have occurred had the [plaintiff] sued
earlier”). In fact, BMS began clinical trials for new indications for nivolumab after Dana-Farber filed suit.
See Yeda, 443 F. Supp. 2d at 630 (declining to consider
any investment made by the defendant after they became aware of the inventorship dispute in the laches
analysis). BMS’s “business decision to capitalize on a
market opportunity” cannot support a claim of economic prejudice. Hemstreet, 972 F.2d at 1294. Additionally,
BMS has already earned billions of dollars in profits
from nivolumab. BMS has not suffered economic prejudice when it has profited so immensely from its product.
ORDER
The Court enters judgment in favor of DanaFarber. Dana-Farber shall submit a form of judgment
within ten days ordering correction of the patents.
SO ORDERED.
/s/ PATTI B. SARIS
Hon. Patti B. Saris
Chief United States District
Judge

